Review of the SEC’s Section 13(f)
Reporting Requirements




                          September 27, 2010
                              Report No. 480
                                               UNITED STATES
                              SECURITIES AND EXCHANGE COMMISSION
                                          WASHINGTON, D.C.     20549


      O.... 'ClO ..
'H"'l[CTO'" COf:Hl"'AL

                                      MEMORANDUM
                                             September 27, 2010

              To:          Mary Schapiro, Chairman
                           Andrew J. Donohue, Director, Division of Investment Management
                           Henry Hu, Director, Division of Risk, Strategy, and Financial
                             Innovation
                           Sharon Sheehan, Associate Executive Director, Office of
                             Administrative Services
                           Jeffery Heslop, Chief Operating Officer, Office of the Chief
                             Operating Officer
                           Barry D. Walters, Chief FOIAIPA Officer, Office of FOIA and
                             Records Management Services
                           David Becker, General Counsel, Office of the General Counsel
                           Ethiopis Tafara, Director, Office of International Affairs

              From:        H. David Kotz, Inspector General, Office of Inspector General!1 D~

              Subject:     Review of the SEC's Section 13(f) Reporting Requirements, Report
                           No. 480

             This memorandum transmits the U.S. Securities and Exchange Commission
             Office of Inspector General's (OIG) final report detailing the results of our review
             of Section 13(f) reporting requirements. The review was conducted by the OIG
             as part of our continuous efforts to assess management of the Commission's
             programs and operations and was based on our audit plan.

             This report contains 12 recommendations that were developed to strengthen the
             SEC's oversight of Section 13(f) reporting. The Chairman's Office and all Office and
             Division Directors fully concurred with the recommendations pertaining to its Office
             or Division. The Office of Information Technology, Office of the General Counsel,
             Office of International Affairs, and the Office of FOIA and Records Management
             Services did not provide OIG with written comments. The written responses OIG
             received to the draft report are included in its entirety in Appendix V.

             Within the next 45 days, please provide the GIG with a written corrective action
             plan that is designed to address the agreed-upon recommendations. The
             corrective action plan should include information such as the responsible
             official/point of contact, time frames for completing the required actions, and
             milestones identifying how you will address the recommendations cited in this
             report.

Review of the SEC’s Section 13(f) Reporting Requirements                              September 27, 2010
Report No. 480
                                                     ii
Should you have any questions regarding this report, please do not hesitate to
contact me. We appreciate the courtesy and cooperation that was extended to
our auditor.

Attachment

cc:     Kayla J. Gillan, Deputy Chief of Staff, Office of the Chairman
        Diego Ruiz, Executive Director, Office of the Executive Director
        Barry D. Miller, Associate Director, Office of Legal and Disclosure,
          Division of Investment Management




Review of the SEC’s Section 13(f) Reporting Requirements            September 27, 2010
Report No. 480
                                                  iii
Review of the SEC’s Section 13(f) Reporting
Requirements

                               Executive Summary
Background. In 1975, Congress enacted Section 13(f) of the Securities
Exchange Act of 1934 (Exchange Act), 15 U.S.C. § 78m(f), to increase the public
availability of information regarding the securities holdings of institutional
investors. According to the legislative history for Section 13(f), Congress
intended to create in the Securities and Exchange Commission (SEC or the
Commission) a centralized repository of historical and current data regarding the
activities of institutional investment managers in order to improve the body of
publicly available factual data and thereby increase investor confidence in the
integrity of the U.S. securities markets. This legislative history also reflects that
Congress anticipated that government agencies, including the SEC, would be
expected to make extensive use of the institutional disclosure data in fulfilling
their responsibilities to protect the public interest within a consistent and
coordinated regulatory framework.

Section 13(f) and the Commission’s implementing regulation require institutional
investment managers that exercise investment discretion with respect to
accounts holding certain equity securities having an aggregate fair market value
of $100 million or more on the last trading day in a calendar year to file quarterly
reports of their holdings with the SEC on Form 13F electronically through the
Commission’s Electronic Database Gathering and Retrieval (EDGAR) system.
Under Commission Rule 13f-1, 17 C.F.R. § 240.13f-1, the Form 13F reports must
be filed within 45 days after the last day of such calendar year and within 45 days
after the last day of each of the first three calendar quarters of the subsequent
calendar year. Section 13(f)(3) mandates that the Commission tabulate the
information contained in the quarterly reports and disseminate that information to
the public.

For the purposes of Section 13(f), an institutional investment manager is an entity
that invests in or trades securities for its own account, or a person or entity that
exercises investment discretion over someone else’s account. The institutional
investment managers that are required to file the Form 13F reports typically
include investment advisers, banks, insurance companies, broker-dealers,
pension funds and corporations. Institutional investment managers exercise
investment discretion if they have the power to determine which securities are
bought or sold for accounts under management, or if they make decisions about
which securities are bought or sold, even if someone else is responsible for the
investment decision.

Review of the SEC’s Section 13(f) Reporting Requirements            September 27, 2010
Report No. 480
                                                  iv
The securities that must be reported under Section 13(f) generally include equity
securities that are traded on an exchange or quoted on National Association of
Securities Dealers Automated Quotations (NASDAQ), equity options and
warrants, shares of closed-end investment companies, and some convertible
debt securities. Under Section 13 (f)(3) of the Exchange Act, the Commission is
responsible for publishing an official list of the securities that must be reported
pursuant to Section 13(f)(1). Form 13F requires disclosure of the name and
address of the institutional investment manager filing the report and, for each
security being reported, specific information, including the name of the issuer, the
class, the CUSIP 1 number, the number of shares or principal amount, and the
aggregate fair market value.

Pursuant to Commission Rule 24b-2, 17 C.F.R. § 240.24b-2, an institutional
investment manager may request confidential treatment of information required
to be reported on Form 13F. Section 13(f)(3) of the Exchange Act, 15 U.S.C. §
78m(f)(3), provides that the Commission may prevent or delay the public
disclosure of the information reported under Section 13(f)(1) in accordance with
the Freedom of Information Act (FOIA). Section 13(f)(3) further provides that
information identifying securities held by the account of a natural person or an
estate or trust (other than a business trust or investment company) shall not be
publicly disclosed. The Commission has delegated authority to the SEC’s
Division of Investment Management (IM) to grant or deny applications for
confidential treatment pursuant to Section 13(f), and to revoke any grants of
confidential treatment for such applications.

Objectives. The Office of Inspector General (OIG) conducted a review in order
to examine whether the Commission’s implementation of and current practices
under Section 13(f) meet Congress’s intent in establishing Section 13(f), to
examine the sufficiency of the Commission’s existing policies and procedures
that implement Section 13(f), and to determine whether the reporting of entities
covered under Section 13(f) is appropriately designed to comply with the
statutory requirements. The objectives also included an examination of whether
the Commission’s policies and procedures for reviewing and processing requests
for confidential treatment of information required to be reported under Section
13(f) are adequate and appropriate. In addition, we performed the review to
determine whether the oversight over the Section 13(f) process is sufficient.




1
 According to the Commission’s website, “CUSIP stands for Committee on Uniform Securities Identification
Procedures. A CUSIP number identifies most securities including: stocks of all registered U.S. and
Canadian companies, and U.S. government and municipal bonds. The CUSIP system—owned by the
American Bankers Association and operated by Standard & Poor’s—facilitates the clearing and settlement
process of securities.” CUSIP Number, http://www.sec.gov/answers/cusip.htm. A CUSIP “number consists
of nine characters (including letters and numbers) that uniquely identify a company or issuer and the type of
security.” Id.
Review of the SEC’s Section 13(f) Reporting Requirements                                 September 27, 2010
Report No. 480
                                                     v
Results. Overall, our review found that significant improvements can be made
with respect to the SEC’s review and monitoring of the information reported
under Section 13(f). Significantly, our review found that despite Congressional
intent that the SEC would be expected to make extensive use of the Section 13(f)
information for regulatory and oversight purposes, no SEC division or office
conducts any regular or systematic review of the data filed on Form 13F. We
found that while IM has delegated authority to grant or deny confidential
treatment pursuant to Section 13(f), no SEC division or office has been delegated
authority to review and analyze the 13F reports, and no division or office
considers this task as falling under its official responsibility. Our review found
that the information filed on Form 13F can be useful and should be reviewed in a
routine and systematic manner.

The OIG’s review also disclosed that no SEC division or office monitors the Form
13F filings for accuracy and completeness. As a result, many Forms 13F are
filed with errors or problems, which may not be detected or corrected in a timely
manner. Because no routine monitoring is conducted, errors or problems with
the Form 13F filings are typically detected only in connection with IM’s
processing of Section 13(f) confidential treatment requests (CTRs), or when a
member of the public notifies IM of an error in or problem with a Form 13F. Our
review also found that there are no checks built into the EDGAR system, through
which the Forms 13F are filed, to scan for obvious errors in the forms. Moreover,
we found that the current text file format of Form 13F limits the facility to extract,
organize and analyze the data being reported.

In addition, our review disclosed that a third party prepares the official list of
Section 13(f) securities that the Commission is required to provide to the public,
and has been doing so since 1981, based upon specifications received from the
SEC in 1979. The official list prepared by the third party is posted to the
Commission’s website each quarter; however, no SEC division or office conducts
any review of the list for accuracy and completeness before it is posted. We
believe that such a review is important, given that institutional investment
managers rely on the official list in preparing their Form 13F reports in
accordance with Commission Rule 13f-1. We further found that the SEC has no
contract or agreement with the third party with respect to the preparation of the
official list of Section 13(f) securities. The lack of a formal contract poses a risk
to the SEC that the third party could stop preparing the list at any time, and this
informal arrangement appears to violate the voluntary services prohibition of the
Antideficiency Act, 13 U.S.C. § 1342.

The OIG’s testing of a sample of CTRs processed by IM revealed that files and
supporting documentation could not be located for approximately one-half of the
CTRs selected in our initial sample of 25 items. When we selected an additional
12 CTRs, files could not be located for two-thirds of the additional 12 items. The
missing files raised concerns that confidential information reported on Form 13F
Review of the SEC’s Section 13(f) Reporting Requirements             September 27, 2010
Report No. 480
                                                  vi
could be inadvertently disclosed. Our testing also indicated that the SEC is not
complying with its records retention schedule for CTRs. In addition, our review
found that with respect to several CTRs, IM had not rendered a final decision on
a timely basis, thus affording certain filers de facto confidential treatment of their
13F reports.

Finally, our review disclosed that the current Section 13(f) reporting requirements
are outdated and do not currently require disclosure of all significant activities of
institutional investment managers, thus rendering the data less useful than it
could be to investors and regulators.

Summary of Recommendations. Our review determined that several
improvements in the Section 13(f) reporting process are needed to ensure,
consistent with Congress’ intent in enacting this Section, that useful and reliable
data is provided to the public and government regulators.

Specifically, we recommend that:

        (1)      The Chairman’s Office delegate primary responsibility for
                 reviewing and analyzing Form 13F information to the
                 appropriate division or office;

        (2)      The Chairman’s Office assign to the appropriate divisions or offices
                 responsibility for monitoring Section 13(f) filings for accuracy and
                 completeness in order to limit the errors in or problems with the
                 filings, thereby enhancing the usefulness and reliability of the data;

        (3)      IM and the Office of Information Technology (OIT) continue
                 previous efforts to implement checks in the EDGAR system to
                 detect and/or correct obvious errors in Forms 13F;

        (4)      IM, in consultation with the Chairman’s Office, work with OIT to
                 pursue updating Form 13F to a more structured format that will
                 make the data easier to extract and analyze;

        (5)      The Chairman’s Office assign to an appropriate division and/or
                 office responsibility for reviewing the official list of Section 13(f)
                 securities that is prepared quarterly by a third party and test it on a
                 sample basis;

        (6)      IM, in consultation with the Office of Administrative Services and
                 the Chairman’s Office, ensure that the SEC enters into a formal
                 contract or agreement with the third party that prepares the official
                 list of Section 13(f) securities;

Review of the SEC’s Section 13(f) Reporting Requirements                September 27, 2010
Report No. 480
                                                  vii
        (7)      IM and the SEC’s Records Management Branch modify their
                 respective policies and procedures to ensure that files for
                 processing CTRs are properly maintained and retained in
                 accordance with the SEC’s record retention schedule;

        (8)      IM, in consultation with the Chairman’s Office, take appropriate
                 steps to improve its policies and procedures to ensure that written
                 requests for confidential treatment (particularly certain novel
                 requests) under Section 13(f) are granted or denied within an
                 appropriate time frame so that filers are not afforded de facto
                 confidential treatment as a result of IM not issuing a written
                 response;

        (9)      IM, in consultation with the Office of the General Counsel (OGC),
                 the Office of International Affairs and the Chairman’s Office, take
                 appropriate steps to improve its policies and procedures to ensure
                 that requests for relief under Section 13(f) made by certain large
                 foreign institutional investment managers are addressed in a timely
                 and appropriate manner;

        (10)     IM, in consultation with the Division of Risk, Strategy, and Financial
                 Innovation (Risk Fin), OGC and the Chairman’s Office, determine
                 whether legislative changes to Section 13(f) should be pursued;

        (11)     IM, in consultation with the Chairman’s Office, request that Risk Fin
                 update its previous analysis of the impact of increasing the Section
                 13(f) reporting threshold of $100 million; and

        (12)     IM, in consultation with Risk Fin and the Chairman’s Office,
                 determine whether to recommend that the Commission adopt a rule
                 requiring institutional investment managers to report aggregate
                 purchase and aggregate sales of securities under Section 13(f).




Review of the SEC’s Section 13(f) Reporting Requirements               September 27, 2010
Report No. 480
                                                 viii
TABLE OF CONTENTS
Executive Summary ............................................................................................... iv

Table of Contents ................................................................................................... ix

Background and Objectives .................................................................................. 1
     Background ....................................................................................................... 1
     Objectives .......................................................................................................... 5

Findings and Recommendations ........................................................................ 6

         Finding 1: Despite the Intent of Congress in Prescribing the Section 13(f)
         Reporting System that the SEC Would Make Extensive Use of the Section
         13(f) Information for Regulatory and Oversight Purposes, the SEC
         Conducts No Continuous or Systematic Review or Analysis of the Form
         13F Reports ....................................................................................................... 6
                       Recommendation 1....................................................................... 9

         Finding 2: The Lack of Monitoring of the Form 13F Information by the
         SEC Renders this Data Less Useful and Reliable than Congress Had
         Intended ............................................................................................................. 9
                         Recommendation 2..................................................................... 12

         Finding 3: There Is No Mechanism by Which the SEC Scans for Obvious
         Errors in Forms 13F, Resulting in These Forms Being Uploaded in
         EDGAR with Errors .......................................................................................... 12
                       Recommendation 3..................................................................... 13

         Finding 4: The Current Text File Format of Form 13F Limits the
         Usefulness of the Data Reported on the Form ................................................. 13
                      Recommendation 4..................................................................... 15

         Finding 5: The SEC Conducts No Review of the Official List of Section
         13(f) Securities Prepared by a Third Party ....................................................... 15
                        Recommendation 5..................................................................... 17

         Finding 6: The SEC Has No Contract with the Third Party that Compiles
         the Official List of Section 13(f) Securities ....................................................... 17
                        Recommendation 6..................................................................... 19

         Finding 7: A Majority of the Confidential Treatment Requests that Were
         Selected for Testing Lacked Files with Supporting Documents and Forms ..... 19
                       Recommendation 7..................................................................... 21

Review of the SEC’s Section 13(f) Reporting Requirements                                         September 27, 2010
Report No. 480
                                                          ix
         Finding 8: Certain Filers Received De Facto Confidential Treatment Even
         Though Their Applications Did Not Meet the Criteria for Confidential
         Treatment Under Section 13(f) ......................................................................... 21
                      Recommendation 8..................................................................... 25
                      Recommendation 9..................................................................... 25

    Finding 9: Form 13F Does Not Currently Require Disclosure of All
    Significant Investment Activities of Institutional Investment Managers and
    Could Be Improved .......................................................................................... 25
                   Recommendation 10 ................................................................... 27
                   Recommendation 11 ................................................................... 28
                   Recommendation 12 ................................................................... 28
Appendices
    Appendix I: Acronyms. .................................................................................... 29
    Appendix II: Scope and Methodology .............................................................. 30
    Appendix III: Criteria ........................................................................................ 32
    Appendix IV: List of Recommendations .......................................................... 34
    Appendix V: Management Comments ............................................................. 37
    Appendix VI: OIG Response to Management’s Comments............................. 45




Review of the SEC’s Section 13(f) Reporting Requirements                                 September 27, 2010
Report No. 480
                                                      x
                     Background and Objectives

Background
Section 13(f) Reporting Requirement
Congress adopted Section 13(f) of the Securities Exchange Act of 1934
(Exchange Act), 15 U.S.C. § 78m(f), as part of the Securities Acts Amendments
of 1975. According to the Securities and Exchange Commission (SEC or the
Commission), this Section required a reporting system that was “intended to
create in the Commission a central repository of historical and current data about
the investment activities of institutional investment managers,” thereby advancing
two separate objectives. 2 First, the reporting system was “designed to improve
the body of factual data available and, thus, facilitate consideration of the
influence and impact of institutional investment managers on the securities
markets and the public policy implications of that influence.” 3 Second, “by
making the Commission responsible for all gathering, processing, and
dissemination of the data, Congress intended to permit establishment of uniform
reporting standards and a centralized data base.” 4 The legislative history for
Section 13(f) indicates that Congress believed that the dissemination of data
about institutional investment managers would “stimulate a higher degree of
confidence among all investors in the integrity of [the U.S.] securities markets.” 5
Congress also believed that the institutional disclosure data would be used
extensively by government agencies, including the SEC, in fulfilling their
regulatory responsibilities. 6

Specifically, Section 13(f)(1) requires that institutional investment managers that
exercise investment discretion with respect to accounts holding equity securities
of a class described in Section 13(d)(1) of the Exchange Act having an aggregate
fair market value of at least $100,000,000 (or a lesser amount that the
Commission may by rule determine but in no case less than $10,000,000) “shall
file reports with the Commission, in such form, for such periods, and at such
times after the end of such periods as the Commission, by rule, may prescribe,

2
  Filing and Reporting Requirements Relating to Institutional Investment Managers, Release No. 34-14852
(June 15, 1978), 43 Fed. Reg. 26700, 26701 (June 22, 1978).
3
  Id.
4
  Id. (citing Report of the Senate Comm. on Banking, Housing, and Urban Affairs, Senate Report No. 75,
94th Cong. 1st Sess. 85 (1975)).
5
  Report of Senate Comm. on Banking, Housing and Urban Affairs, S. Rep. No. 94-75 at 78 (1975),
reprinted in 1975 U.S.C.C.A.N. 179, 261. See also Division of Investment Management: Frequently Asked
Questions About Form 13F (May 2005)(Frequently Asked Questions), http://www.sec.gov/divsions
/investment/13ffaq.htm, Question 1 at p.1 (“Congress believed that this institutional disclosure program
would increase investor confidence in the integrity of the United States securities markets.”).
6
  Report of Senate Comm. on Banking, Housing and Urban Affairs, S. Rep. No. 94-75 at 79 (1975),
reprinted in 1975 U.S.C.C.A.N. 179, 261.
Review of the SEC’s Section 13(f) Reporting Requirements                                   September 27, 2010
Report No. 480
                                                     1
but in no event shall such reports be filed for periods longer than one year or
shorter than one quarter.” 7 For each equity security held on the last day of the
reporting period with respect to which the institutional investment manager
exercises investment discretion (other than securities held in amounts the
Commission, by rule, determines to be insignificant), the following information
must be reported: “the name of the issuer and the title, class, CUSIP number,
number of shares or principal amount, and aggregate fair market value of each
such security.” 8

The Commission’s website describes an “institutional investment manager” as
follows:

         In general, an institutional investment manager is: (1) an entity that
         invests in, or buys and sells, securities for its own account; or (2) a
         person or an entity that exercises investment discretion over the
         account of any other person or entity. Institutional investment
         managers can include investment advisers, banks, insurance
         companies, broker-dealers, pension funds, and corporations. 9

With regard to the term “investment discretion,” Division of Investment
Management’s (IM) Frequently Asked Questions (FAQs) About Form 13F state
that “[a]n institutional investment manager exercises investment discretion if:
(i) the manager has the power to determine which securities are bought or sold
for the account(s) under management; or (ii) the manager makes decisions about
which securities are bought or sold for the account(s), even though someone
else is responsible for the investment decisions.” 10

The securities that must be reported pursuant to Section 13(f), i.e., Section 13(f)
securities, “generally include equity securities that trade on an exchange or are
quoted on the Nasdaq National Market, some equity options and warrants,
shares of closed-end investment companies, and some convertible debt
securities;” however, “[t]he shares of open-end investment companies (i.e.,
mutual funds) are not Section 13(f) securities.” 11 The securities that must be
reported are those contained in an official list of securities that the Commission is
required to make available to the public for a reasonable fee and update no less
frequently than reports are required to be filed pursuant to Section 13(f)(1). 12


7
  15 U.S.C. § 78m(f)(1).
8
  Id. Section 13(f)(1) also list other information that the Commission may, by rule, require to be reported for
accounts with respect to which the institutional investment manager exercises investment discretion.
9
  Form 13F—Reports Filed by Institutional Investment Managers, http://www.sec.gov/answers/form13f.htm.
See also Frequently Asked Questions, Question 3 at pp. 1-2.
10
   Frequently Asked Questions, Question 6 at p. 3 (citing Section 3(a)(35) of the Exchange Act and
Commission Rule 13f-1(b)).
11
   Form 13F—Reports Filed by Institutional Investment Managers, http://www.sec.gov/answers/form13f.htm.
See also Frequently Asked Questions, Question 7 at p. 3.
12
   15 U.S.C. § 78m(f)(3); see also 17 C.F.R. § 240.13f-1(c).
Review of the SEC’s Section 13(f) Reporting Requirements                                   September 27, 2010
Report No. 480
                                                      2
Commission Rule 13f-1 requires that institutional investment managers that
exercise investment discretion with respect to accounts holding Section 13(f)
securities having an aggregate fair market value on the last trading day of any
month of a calendar year of at least $100 million file a report with the
Commission on Form 13F within 45 days after the end of the calendar year, and
within 45 days after the end of the first three quarters of the subsequent calendar
year. 13 According to the Commission’s website, “Form 13F requires disclosure
of the names of institutional investment managers, the names of the securities
they manage and the class of securities, the CUSIP number, the number of
shares owned, and the total market value of each security.” 14

Form 13F must be filed electronically using the Commission’s EDGAR system;
paper filings are only permitted if the filer has been granted a hardship
exemption. 15 Form 13F consists of three separate parts: a cover page, a
summary page, and an information table (which contains the reportable
information for the Section 13F securities). 16 There are three different types of
Form 13F reports: a 13F Holdings Report (used if all of an institutional
investment manager’s Section 13(f) securities are listed on its Form 13F); a 13F
Combination Report (used if some of the institutional investment manager’s
Section 13(f) securities are listed on its Form 13F, and the rest are listed on
someone else’s Form 13F; and a 13F Notice (used if all of the institutional
investment manager’s Section 13(f) securities are reported on someone else’s
Form 13F). 17

Section 13(f) Confidential Treatment Requests
Confidential treatment is available for information required to be reported under
Section 13(f) under certain circumstances. According to guidance issued by IM,
while Congress intended for the Section 13(f) information to be promptly
disseminated to the public, it also recognized that, in some instances, disclosure
of certain information could have harmful effects, both on an institutional
investment manager and on the investors whose assets are under its
management. 18 Accordingly, “[t]o balance these competing interests, Section
13(f)(3) authorizes the Commission to delay or prevent the public disclosure of

13
   17 C.F.R. § 13f-1(a). See also Frequently Asked Questions, Question 28 at p. 8 (noting that an
institutional investment manager should file its first Form 13F for the December quarter for the calendar
during which it first reaches the $100 million filing threshold, and will then need to submit filings for the
March, June, and September quarters of the following calendar year, even if the market value of its Section
13(f) securities falls below the $100 million level).
14
   Form 13F—Reports Filed by Institutional Investment Managers, http://www.sec.gov/answers/form13f.htm.
See also Frequently Asked Questions, Question 8 at pp. 3-4.
15
   Frequently Asked Questions, Questions 13 and 14 at p. 5.
16
   Frequently Asked Questions, Question 31 at p. 9.
17
   Frequently Asked Questions, Question 33 at p. 9.
18
   Letter from Douglas Scheidt, Associate Director and Chief Counsel, Division of Investment Management
to Section 13(f) Confidential Treatment Filers (June 17, 1998)(Scheidt Letter),
http://www.sec.gov/divisions/investment/guidance/13fpt2.htm, at p. 2.
Review of the SEC’s Section 13(f) Reporting Requirements                                    September 27, 2010
Report No. 480
                                                      3
information as it determines to be necessary or appropriate in the public interest
or for the protection of investors.” 19

Section 13(f)(3) allows for confidential treatment of information required to be
filed under that Section in two respects. First, Section 13(f)(3) provides that “the
Commission, as it determines to be necessary or appropriate in the public
interest or for the protection of investors, may delay or prevent public disclosure
of any . . . information [filed in reports required by Section 13(f)] in accordance
with section 552 of Title 5 [the Freedom of Information Act (FOIA)].” 20 According
to the IM’s FAQs About Form 13F, “[a]t a minimum, requests for confidential
information must satisfy the requirements of FOIA Exemption 4 which protects
‘trade secrets and commercial or financial information obtained from a person
and privileged or confidential.’” 21

Second, Section 13(f)(3) further provides that “[n]otwithstanding the preceding
sentence, any such information identifying the securities held by the account of a
natural person or an estate or trust (other than a business trust or investment
company) shall not be disclosed to the public.” 22 This category of confidential
information is referred to as the “personal holdings exemption.” 23 Confidential
treatment based on the personal holdings exemption lasts indefinitely, although
the filer may not “always receive confidential treatment because changed
circumstances may make the personal holding exemption inapplicable.” 24

CTRs must be made in accordance with Rule 101(c)(1)(i) of Regulation S-T, 25
and the Confidential Treatment Instructions 1 and 2 to Form 13F. In addition,
confidential treatment applications must follow the procedural requirements
contained in Rule 24b-2 under the Exchange Act. 26 CTRs must be submitted in
paper, although the filer must still submit the public Form 13F electronically via
EDGAR, omitting the information for which confidential treatment is sought. 27

The Commission has delegated to the Director of IM the authority to grant or
deny applications for confidential treatment of information filed under Section
13(f), and to revoke a grant of confidential treatment for any such application. 28

19
   Id.
20
   15 U.S.C. § 78m(f)(3).
21
   Frequently Asked Questions, Question 52 at pp. 14-15 (quoting 5 U.S.C. § 552(b)(4)).
22
   15 U.S.C. § 78m(f)(3).
23
   Frequently Asked Questions, Question 52 at p. 14.
24
   Id., Question 55a at p. 16.
25
   17 C.F.R. § 232.101(c)(i). This rule requires that CTRs, and the information with respect to which
confidential treatment is sought, be filed in paper form only.
26
   17 C.F.R. §240.24b-2. Under this rule, an application for confidential treatment must include, among
other things, an analysis of the applicable exemption(s) from disclosure under the Commission’s rules and
regulations adopted under the FOIA, and a justification of the time period for which confidential treatment is
sought.
27
   Frequently Asked Questions, Question 53 at p. 15. See also Form 13F, Instructions for Confidential
Treatment Requests at p. 2.
28
   17 C.F.R. § 200.30-5(c)(1) and (2).
Review of the SEC’s Section 13(f) Reporting Requirements                                  September 27, 2010
Report No. 480
                                                      4
IM has put in place well-constructed review procedures for processing CTRs,
especially in novel or complicated cases involving ongoing investment strategies
for acquisitions and dispositions. IM carefully reviews the information the filers
provide as a basis for seeking confidential treatment and researches public data
in order to validate the basis provided by the filer.

Additionally, IM’s procedures appropriately provide for the assignment of CTR
applications to the pertinent staff, and for the proper supervision of those staff.
Specifically, CTR applications are reviewed by IM attorneys, who are each
assigned the applications of a number of institutional investment managers. This
practice allows continuity and enables the attorney to build rapport with the filers.
More complicated requests are assigned to senior attorneys, while routine
requests, such as personal holdings exemption requests, are assigned to new
attorneys or paralegal specialists. The IM attorneys who work on CTRs are
generally knowledgeable of the confidential treatment process and encouraged
to consult with one another and their supervisors. Further, an IM Branch Chief
reviews all CTRs, except for personal holdings exemption requests that have
been granted in the past. An IM Assistant Director and the Chief Counsel review
the CTRs and response letter in certain novel cases, and the Chief Counsel
reviews all denial letters and any appeals filed by the institutional investment
managers.

Objectives
The objectives of the review were to examine whether the Commission’s
implementation of and current practices under Section 13(f) meet Congress’s
intent in establishing Section 13(f), to examine the sufficiency of the
Commission’s existing policies and procedures that implement Section 13(f), and
to determine whether the reporting of entities covered under Section 13(f) is
appropriately designed to comply with the statutory requirements. The objectives
also included an examination of whether the Commission’s policies and
procedures for reviewing and processing requests for confidential treatment of
information required to be reported under Section 13(f) are adequate and
appropriate. In addition, we performed the review to determine whether the
oversight over the Section 13(f) process is sufficient.




Review of the SEC’s Section 13(f) Reporting Requirements             September 27, 2010
Report No. 480
                                                  5
              Findings and Recommendations


Finding 1: Despite the Intent of Congress in
Prescribing the Section 13(f) Reporting
System that the SEC Would Make Extensive
Use of the Section 13(f) Information for
Regulatory and Oversight Purposes, the SEC
Conducts No Continuous or Systematic
Review or Analysis of the Form 13F Reports
        No SEC division or office has been delegated authority to
        review the Section 13(f) reports, and no regular or
        systematic review or analysis of this information is
        conducted.

Section 13(f)(3) requires the Commission to tabulate the information contained in
any reports filed pursuant to Section 13(f) “in a manner which will, in the view of
the Commission, maximize the usefulness of the information to other Federal and
State authorities and the public.” 29 That subsection further requires the
Commission to make this information available to the public for a reasonable fee
in such form as the Commission, by rule, may prescribe, except where the
Commission determines that information should be afforded confidential
treatment. 30

Consistent with the statutory language, the legislative history for Section 13(f)
makes clear that Congress anticipated that regulatory agencies, including the
SEC, would be expected to make extensive use of the information required to be
disclosed under Section 13(f). That legislative history stated, in part, as follows:

        Moreover, the SEC, bank regulatory agencies, and other agencies
        (both federal and state) could be expected to make extensive use
        of the institutional disclosure data in fulfilling their responsibilities to
        consider and develop standards designed to protect the public
        interest within a consistent and coordinated regulatory framework.
        It would be expected that the SEC might use the institutional
        disclosure data in generally two different ways: to analyze the
        characteristics of institutional investment managers, and to analyze

29
  15 U.S.C. § 78m(f)(3).
30
  Id.
Review of the SEC’s Section 13(f) Reporting Requirements                   September 27, 2010
Report No. 480
                                                  6
         the impact of institutional investment managers on the securities
         markets. 31

The Commission itself has recognized in various orders it has issued that “[t]he
legislative history of [S]ection 13(f) suggests that the provision was designed to
further regulatory and policymaking uses of the information, as well as to
contribute to the transparency and integrity of, and investor confidence, in the
U.S. equity markets.” 32 In addition, in a cease-and-desist proceeding involving a
hedge fund’s repeated failure to file Forms 13F, the Commission noted the
current importance of Section 13(f) information as follows:

         The information is valuable to the Commission because it
         “facilitate[s] consideration of the influence and impact of institutional
         investment managers on the securities markets and the public
         policy implications of that influence.” Reporting by Institutional
         Investment Managers of Information With Respect To Accounts
         Over Which Investment Discretion is Exercised, Release No. 34-
         13396, at 1 (Mar. 22, 1977). The need for such information in
         the regulatory oversight of market practices is at least as
         acute today, when institutional investment managers oversee
         in excess of $1 trillion of hedge fund investments, as it was in
         1975 when Section 13(f) was enacted. 33

Moreover, the Commission has represented that the Commission staff is using
Section 13(f) information for a variety of regulatory purposes, stating as follows:

         The information collected on Forms 13F has been and continues to
          be used by U.S. regulators, academics, the media and financial
          information distributors, and investors, and other U.S. equity
          markets participants, as intended by Congress. The Commission’s
          staff use Form 13F information for a variety of research, oversight,
          and enforcement purposes. The Commission’s staff also use
          Form 13F-based academic research, for example, to analyze the
          Commission’s rulemaking initiatives under the federal securities
          laws. 34


31
   Report of Senate Comm. on Banking, Housing and Urban Affairs, S. Rep. No. 94-75 at 79 (1975),
reprinted in 1975 U.S.C.C.A.N. 179, 261.
32
   In re Wynnefield Capital Management LLC and Wynnefield Capital, Inc., Release No. 34-61930 (Apr. 16,
2010), at 1-2 (citing S. Rep. No. 75 at 80-84); In re Full Value Advisors, LLC, Release No. 34-61327 (Jan.
11, 2010) at 2 (same citation). See also In re Quattro Global Capital, LLC, Release No. 34-56252 (Aug. 15,
2007), at 2 (“The Congressional purpose in enacting Section 13(f) of the Exchange Act was ‘to create a
central depository of historical and current data about the investment activities of institutional investment
                                                                                               th
managers’ to assist investors and government regulators.” (quoting S. Rep. No. 94-75, 94 Cong., 2d [sic]
Sess. 82-85 (1975)).
33
   In re Quattro Global Capital, LLC, Release No. 34-56252 (Aug. 15, 2007), at 2-3 (emphasis supplied).
34
   In re Full Value Advisors, LLC, Release No. 34-61327 (Jan. 11, 2010), at 4 (footnote omitted).
Review of the SEC’s Section 13(f) Reporting Requirements                                      September 27, 2010
Report No. 480
                                                       7
Our review found that, despite the statements above concerning the use of Form
13F information for a variety of oversight and other purposes, the SEC does not,
in fact, conduct any continuous or systematic review or analysis of that
information. As noted above, the Director of IM has been delegated authority to
grant or deny applications for confidential treatment of information filed under
Section 13(f), and to revoke a grant of confidential treatment for any such
application. However, no Commission division or office has been delegated
authority to review the Form 13F filings. As a consequence, no SEC division or
office considers reviewing Form 13F as falling under its official responsibility, and
no division or office conducts such a review on a systematic or ongoing basis.

IM management informed us that the “oversight” uses referred to in the
Commission order described above referred to the review of certain Forms 13F
performed by other Commission divisions or offices. IM stated its belief that the
Office of Compliance Inspections and Examinations (OCIE), during its periodic
examinations and surveillance, checks to see whether a registered investment
adviser or broker-dealer files Form 13F, but generally does not substantively
review the Form 13F reports that such registrant files. Our review found that only
in rare occasions would Forms 13F be reviewed during OCIE Examinations.
While OCIE on occasion encounters instances when registered entities that
should have filed Form 13F failed to do so, these instances are infrequent
because compliance with Section 13(f) is not the focus of OCIE’s examinations of
registered entities, and OCIE lacks jurisdiction over institutional investment
managers that are not registered. 35

Our review also disclosed that Risk Fin economists have used Form 13 F data to
conduct analyses, 36 and that SEC staff use Form 13F data to inform
Commission rule making. 37 In addition, Risk Fin pointed out that Commission
staff routinely use Form 13F data to formulate penalty recommendations in
corporate fraud cases. Nonetheless, there is no systematic review or analysis of
Form 13F data being conducted. One Risk Fin staff member expressed the
belief that the data in Form 13F filings is useful to research the holdings of large
institutional investment managers in particular, as the large managers have the
resources and knowledge to report Form 13F data correctly. 38

A Risk Fin staff member provided an example of useful information that may be
provided by review and analysis of the information filed on Form 13F. In that
instance, a Risk Fin employee who was conducting research on the valuation of

35
   OCIE staff estimated that they find issues with Form 13F in less than 5 percent of OCIE’s examinations.
36
   According to Risk Fin, Form 13F data have formed the basis of numerous academic studies, some of
which were conducted by economists at the SEC and some of which were prepared by economists working
outside the SEC. Risk Fin stated that the SEC staff regularly rely on economic research of this nature.
37
   Risk Fin cited the proxy access rule as a recent example of Form 13F data being used to support a
rulemaking. See Facilitating Shareholder Director Nominations, File No. S7-10-09 (Aug. 25, 2010).
38
   This Risk Fin staff member indicated that errors in Form 13F filings (see Findings 2 and 3) appeared to be
more prevalent in the filings of small managers who have less resources and expertise.
Review of the SEC’s Section 13(f) Reporting Requirements                                  September 27, 2010
Report No. 480
                                                     8
warrants noted a zero value for certain warrants reported by institutional
investment managers on Form 13F. The Risk Fin employee contacted OCIE,
which reviewed Form 13F filings to determine the valuation of similar warrants
and determined that institutional investment managers reported different values
for the same warrants. OCIE is in the process of obtaining supporting
documentation from registered filers and plans to contact the Division of Trading
and Markets in an effort to obtain similar information from non-registrants. IM
staff acknowledged that the valuation of warrants would be materially important,
for example, if it were to impact whether an institutional investment manager has
exceeded the Section 13(f) reporting threshold of $100 million. In addition, IM
indicated that research into the methodology used to value the warrants might
reveal that one model is better than other models, such that IM might wish to
notify certain institutional investment managers of the preferred methodology.

Our review concluded, therefore, that a systematic review of Form 13F
information can provide valuable information and should be conducted to ensure
that the SEC is making the maximum use of the Form 13F information,
consistent with the intent of Congress.

        Recommendation 1:

        The Chairman’s Office should delegate primary responsibility for reviewing
        and analyzing Form 13F information to the appropriate division or office.

        Management Comments. The Chairman’s Office concurred with this
        recommendation. See Appendix V for management’s full comments.

        OIG Analysis. We are pleased that the Chairman’s Office concurred with
        this recommendation.

Finding 2: The Lack of Monitoring of the
Form 13F information by the SEC Renders
this Data Less Useful and Reliable than
Congress Had Intended
        There is no periodic monitoring of the Section 13(f) reporting
        process, including no review of the Form 13F filings for
        accuracy and completeness.

As mentioned in Finding 1, the OIG review has found that no Commission
division or office is responsible for reviewing Form 13F filings and that, as a
consequence, no systematic review of the Form 13F filings is conducted. The
OIG review also found that the SEC conducts no periodic monitoring of the Form
Review of the SEC’s Section 13(f) Reporting Requirements            September 27, 2010
Report No. 480
                                                  9
13F filings to ensure the accuracy and completeness of the information that is
reported. As a general matter, apart from the review of Form 13F as a result of
an institutional investment manager’s request for confidential treatment of Form
13F information, the majority of the monitoring or checking of this information by
IM is performed only after a member of the public notifies IM of an error in or
problem with a Form 13F, or IM receives a referral from another SEC division or
office.

Further, as discussed above, our review found that only on rare occasions during
examinations does OCIE identify entities subject to 13(f) that failed to file the
required reports. On these very few occasions, OCIE issues a deficiency letter,
requesting that the entity file the required Form 13F. The entity then typically
sends a written response to the examination team and makes the necessary
filing(s) or amended filing(s). The examination team then checks in EDGAR to
ensure that the required filing or filings were made. However, no continuous
monitoring is performed to ensure that the entities that failed to file Form 13F
make the required filings in the future, and OCIE does not notify IM of these
situations. 39

IM’s Current Procedures for Addressing Errors in or Problems
with Forms 13F

We found in our review that IM has no formal procedures for monitoring or
checking the Form 13F filings, as IM’s Section 13(f) work focuses almost
exclusively on CTRs. Apart from the reviews of Forms 13F conducted pertinent
to the review of CTRs, the only examination of the Form 13F filings we identified
was the informal work of one paralegal specialist in IM, who primarily collects
information from entities or individuals outside of the Commission about errors
with the Form 13F filings. According to this one paralegal specialist, while she
does not conduct any systematic monitoring or checking of the forms, members
of the public, including certain research centers, graduate students, individual
researchers, academia, investors, and financial institutions periodically review
Form 13F filings and notify her of issues or problems identified with the filings. In
addition, on occasion, errors in or problems with Form 13F are identified as a
result of filers contacting the paralegal requesting assistance on other issues, or
by staff in IM or other SEC divisions or offices who are performing other work. 40

We found that the errors or problems identified with Form 13F filings are not
infrequent. The paralegal indicated that she receives approximately 20 to 25
calls a week near the time period when quarterly filings are due and posted on

39
   IM staff believe that OCIE should monitor these entities and their filings, since IM is not responsible for
reviewing Forms 13F apart from assessing CTRs, and the failure to file the Form 13F was detected through
an OCIE examination.
40
   According to the paralegal, the public identified about 70 percent of the Form 13F issues brought to her
attention, while the remaining 30 percent are discovered in working with filers or by Commission staff.
Review of the SEC’s Section 13(f) Reporting Requirements                                     September 27, 2010
Report No. 480
                                                     10
the SEC’s website. The paralegal specialist maintains e-mails and logs of calls
from the public on issues with certain Form 13F filings and researches the issues
or follows up with the institutional investment managers. She enters complicated
issues related to Section 13(f) CTRs and errors in Form 13F filings in IM’s Office
of Chief Counsel’s internal database. However, our review found that complaints
and issues noted by the public regarding Form 13F filings are not separately
identified in the database.

The paralegal specialist indicated that she attempts to correct the errors or
problems that are identified through an informal process. This process includes
contacting the institutional investment managers, notifying them of the
deficiencies or errors identified, and setting a general time table to address the
issues. However, according to the paralegal specialist, issues identified with
Form 13F filings may take many months to resolve, as the errors or problems
identified may cover many quarterly filings.

Examples of the Errors in or Problems Related to the Form 13F
Filings
Based upon the number of issues identified with the Form 13F filings, including
those found by entities outside the SEC and the lack of any formal or systematic
monitoring by the SEC, the review has determined that the public may not always
be obtaining accurate and complete data, or the most useful information, on
Form 13F. Our review of IM’s log and supporting documents revealed the
following examples of concerns with or errors in certain Form 13F filings that
were identified by the public:

    •   A graduate student regularly reviewed Form 13F filings and
        informed the IM paralegal specialist of numerous issues, including
        those relating to the Form 13F of a particular bank. In that
        instance, the bank used an expired Form 13F in paper format,
        rather than the EDGAR form that became available in 1999. IM’s
        inquiry of the bank revealed that the bank had been using the old
        form since it began filing Form 13F and had not previously been
        notified of the error.

    •   An employee from a stock research firm notified IM that a European
        bank affiliate operating in the United States did not file Form 13F for
        the period ended December 31, 2009. When the paralegal
        specialist contacted the U.S. bank, she was informed that its
        holdings were now aggregated with those of the European bank.
        However, the European bank had also not filed Form 13F.
        According to IM, the filing deficiencies with respect to such
        European bank and its U.S. affiliate have been corrected as of June
        14, 2010 (after the commencement of our fieldwork).
Review of the SEC’s Section 13(f) Reporting Requirements              September 27, 2010
Report No. 480
                                                 11
Our review disclosed that as of June 7, 2010, the paralegal specialist was
working on approximately 22 cases involving issues with Form 13F that were
noted by the public and had not been fully addressed. A formalized process for
systematic monitoring of Form 13F, even if merely on a test basis, would detect
errors or other issues and problems with Form 13F and ensure that these types
of issues are addressed and corrected on a timelier basis. As a consequence,
the public would be provided with more accurate, complete and useful
information, consistent with the intent of Congress in enacting Section 13(f).
While the OIG acknowledges that it would be too cumbersome and time-
consuming to perform a review of every Form 13F (in its current form), as there
are at least 3,000 to 4,000 filers each quarter, the SEC could audit the Form 13F
files of a sample of filers and review the Form 13F filings of new filers.

        Recommendation 2:

        The Chairman’s Office should assign to the appropriate divisions or
        offices responsibility for monitoring Section 13(f) filings for accuracy and
        completeness in order to limit the errors in or problems with the filings and
        thereby enhance the usefulness and reliability of the data.

        Management Comments. The Chairman’s Office concurred with this
        recommendation. See Appendix V for management’s full comments.

        OIG Analysis. We are please that the Chairman’s Office concurred with
        this recommendation.


Finding 3: There Is No Mechanism by Which
the SEC Scans for Obvious Errors in Forms
13F, Resulting in These Forms Being
Uploaded in EDGAR with Errors
        Currently, the Forms 13F that are uploaded through EDGAR
        are not scanned for obvious errors. Therefore, there is no
        system in place to limit the amount of errors contained on
        the forms.

In addition to the lack of monitoring of Form 13F (see Finding 2 above), the SEC
has not implemented any tool to scan for and/or correct obvious errors on Form
13F. As noted above, errors on Forms 13F are generally only detected if they
are identified by the public or noted by IM during its review of CTRs. Moreover,
the errors that are identified are often not corrected on a timely basis. As a result
of the errors on the Forms 13F, the benefits of the reporting system are
minimized.
Review of the SEC’s Section 13(f) Reporting Requirements             September 27, 2010
Report No. 480
                                                 12
In connection with discussions regarding the possible modernization of Form 13F
that took place in 2005 but were not pursued (see Finding 4 below), OIT, in
consultation with IM, prepared a document detailing the types of errors that might
be made in filing Form 13F (e.g., failing to complete a required field, entering a
date in an improper format) and possible help messages for those errors. These
efforts should be pursued and checks should be implemented in EDGAR to
prevent incomplete or plainly erroneous filings from being submitted, such as
filings that are inadvertently dated far into the future or contain mismatched or
inappropriate table alignments. In addition, other measures should be taken to
scan for and/or correct readily identifiable errors on the Forms 13F that are filed
through EDGAR.

        Recommendation 3:

        The Division of Investment Management and the Office of Information
        Technology should renew the efforts that were begun in 2005 and
        implement checks in the Electronic Data Gathering and Retrieval
        (EDGAR) system that will detect and/or correct obvious errors contained
        in the Forms 13F that are uploaded in EDGAR.

        Management Comments. IM and OIT concurred with this
        recommendation. See Appendix V for management’s full comments.

        OIG Analysis. We are pleased that IM and OIT concurred with this
        recommendation.

Finding 4: The Current Text File Format of
Form 13F Limits the Usefulness of the Data
Reported on the Form
     The data submitted on the current electronic Form 13F is
     difficult to analyze and manipulate due to the text file format of
     Form 13F and the lack of uniformity in reporting data on the
     form.

Form 13F was initially submitted in paper format. During a phase-in to
mandatory electronic filing, the Commission permitted institutional investment
managers to report their holdings electronically on former Form 13F-E, on a
voluntary basis. 41 In January 1999, the Commission adopted amendments to
mandate the electronic filing of Form 13F using the EDGAR system. 42 Effective

41
   Final Rule: Rulemaking for EDGAR System, Release No. 34-40934 (Jan. 12, 1999),
http://www.sec.gov/rules/final/34-40934.htm, at p. 2.
42
   Id. at pp. 1-2.
Review of the SEC’s Section 13(f) Reporting Requirements                          September 27, 2010
Report No. 480
                                                13
April 1, 1999, institutional investment managers were required to file Form 13F
electronically on EDGAR. 43

At the time electronic submission of Form 13F on EDGAR became mandatory in
1999, the SEC decided to use a text file format for Form 13F. EDGAR imposes a
maximum line length of 132 characters, thus limiting the amount of information
that can be submitted on a line. In addition, IM staff indicated the text file format
of Form 13F limits its usefulness because the data is not manageable and cannot
be easily analyzed.

Our review also found that the text format of Form 13F limits the ability of other
SEC divisions and offices to utilize the information effectively. For example, one
Risk Fin staff member observed that Form 13F should be submitted in machine-
readable form instead of an unformatted text file. This is because data submitted
on Form 13F cannot easily be aggregated across filers or merged with other data
sets due to the limitations on the text file format of Form 13F and the lack of
universal identifiers for the filers. The Risk Fin staff member believes that if Form
13F filings were in a tagged format, various users, individual researchers and
data vendors would be able to extract and merge Form 13F data into a single
database. Risk Fin pointed out, however, that some third-party providers make
Form 13F data available in a standardized format that is readily usable by Risk
Fin economists.

In addition, we found that OCIE sometimes uses Form 13F data in its
examinations of investment advisers. An OCIE staff member who is familiar with
Form 13F noted that the current EDGAR text file makes it nearly impossible to
manipulate the data in order to perform comparison analysis or data mining
because the data in the text file must be entered into an Excel spreadsheet or
another similar format. Our review also found that while filers are assigned an
identification number for use when filing Form 13F, they do not always include
the identification number on the form. In addition, Form 13F does not require
filers to note their Central Index Key numbers, which identify corporations and/or
individuals that have submitted disclosure filings with the SEC. The absence of
identification numbers makes it difficult for users to identify particular entities and
compare data submitted on Form 13F with information submitted on other types
of SEC filings.

We learned through discussions with IM and OIT staff that in or about 2005, IM
explored with OIT the possibility of modernizing the format of Form 13F.
Specifically, IM and OIT discussed changing the text file format of Form 13F to a
more structured format that would use an Extensible Markup Language (XML)
form 44 and would be posted on the SEC’s website. However, OIT staff informed

43
  Id. at p. 1.
44
  XML is a set of rules for encoding documents in machine-readable form; it is a textual data format that is
widely used in web services.
Review of the SEC’s Section 13(f) Reporting Requirements                                 September 27, 2010
Report No. 480
                                                    14
us that due to other priorities, such as former Chairman Christopher Cox’s efforts
to use XBRL (Extensible Business Reporting Language) for company filings, the
Form 13F project was never completed. OIT staff indicated that the project delay
was not a result of funding issues, as converting Form 13F to XML would not
have been very costly.

OIT staff further stated that they have retained requirements documentation from
their meetings with IM in 2005. OIT also indicated that it would be possible to
pursue this project further if IM is still interested in changing the format of Form
13F. However, based upon the resources that are currently available, OIT has
stated that the earliest it could pursue this project actively would be in March
2011.

        Recommendation 4:

        The Division of Investment Management, in consultation with the
        Chairman’s Office, should work with the Office of Information Technology
        and update Form 13F to a more structured format, such as Extensible
        Markup Language (XML), to make it easier for users and researchers to
        extract and analyze Section 13(f) data.

        Management Comments. IM concurred with this recommendation. See
        Appendix V for management’s full comments.

        OIG Analysis. We are pleased that IM concurred with this
        recommendation.

Finding 5: The SEC Conducts No Review of
the Official List of Section 13(f) Securities
Prepared by a Third Party
        A third party prepares the official list of securities that is
        required by Section 13(f)(3) by searching relevant databases
        based upon criteria the SEC provided. The SEC performs
        no review of the list and does not monitor it for accuracy and
        completeness.

Section 13(f)(3) requires that “[t]he Commission shall make available to the
public for a reasonable fee a list of all equity securities of a class described in
[Section 13(d)(1)], updated no less frequently than reports are required to be filed
pursuant to [Section 13(f)(1)].” 45 The “Official List of Section 13(f) Securities” is


45
  15 U.S.C. § 78m(f)(3).
Review of the SEC’s Section 13(f) Reporting Requirements             September 27, 2010
Report No. 480
                                                 15
published on the SEC’s website on a quarterly basis. 46 Section 13(f) securities
are equity securities that are described in Section 13(d)(1) of the Exchange
Act. 47 Under Commission Rule 13f-1(c), “[i]n determining what classes of
securities are section 13(f) securities, an institutional investment manager may
rely on the most recent list of such securities published by the Commission
pursuant to [Section 13(f)(3)].” 48 Only securities of a class included on the list
shall be counted in determining whether an institutional investment manager
must file a 13(f) report, and only those securities shall be reported. 49

Our review disclosed that a third party prepares and maintains the official list of
Section 13(f) securities, without any review by SEC staff. The third party that
prepares and maintains the list informed us that it has provided the official list to
the SEC quarterly via FTP transmission 50 (on the 15th of each December, March,
June and September) since 1981, based upon specifications originally provided
by the SEC in 1979. Hence, a security that qualifies as a Section 13(f) reporting
security in the last two weeks of a quarter will be included in the official list for the
following quarter.

The third party informed us that it prepares the list quarterly by electronically
screening its relevant databases for securities that match the categories provided
by the SEC, which include: (1) common stocks or similar securities,
(2) convertible preference stocks or preferred stocks, (3) convertible bonds,
(4) warrants or rights to purchase common stocks, and (5) options. The third
party collects and maintains securities reference data on a daily basis from direct
and indirect sources, including exchange feeds, public filings, agency
information, prospectuses and official statements, government filings, outside
vendors, investment publications and direct issuer sources. The third party
stated that it performs quality assurance on the databases used to prepare the
official list daily, through the use of measures such edit checks, statistical
sampling and change reports.

In order to assess whether the third party has proper controls and processes in
place for producing the official listing of Section 13(f) securities, the OIG
requested a copy of its Statement of Auditing Standards (SAS) 70 Report Type II,
which is an audited report on internal controls and processes prepared by an
independent auditor. The third party informed us that its processes and controls
are not currently audited by an independent auditor and, therefore, it had no SAS
70 Report Type II.

OIT staff stated that the third party sends the official list on approximately the 18th
of the last month of the quarter and that OIT generally posts the official list on the
46
   See http://www.sec.gov/divisions/investment/13flists.htm.
47
   Frequently Asked Questions, Question 7 at p. 3.
48
   17 C.F.R. § 240.13f-1(c).
49
   Id.
50
   FTP (File Transfer Protocol) is a standard network protocol used to copy files from one host to another.
Review of the SEC’s Section 13(f) Reporting Requirements                                 September 27, 2010
Report No. 480
                                                   16
SEC website by the eighth day of the following month. OIT has read-only access
to the FTP transmission, and OIT does not compare the data received from the
third party with any other information or otherwise review it or check it for
accuracy. OIT staff indicated that if there is an issue with the official list (e.g., a
delay in receiving the FTP transmission), OIT will contact the third party.

Our review further disclosed that IM performs no review of the official list
provided by the third party and had very little involvement with the compilation of
the list. We learned of only infrequent contacts (e.g., once in 2007) between IM
staff and the third party regarding whether certain securities or types of securities
should be included in the official list. Also, we were not able to identify any
contract or agreement with the third party that prescribes how the list is to be
prepared (see Finding 6 below). Because institutional investment managers are
permitted by Commission rule to rely on the official list to prepare their 13F
reports, it is important that the official list be up-to-date and accurate. Therefore,
the SEC should be performing oversight of the official list, rather than relying
exclusively upon a third party.

        Recommendation 5:

        The Chairman’s Office should assign to an appropriate division and/or
        office responsibility for reviewing the official list of Section 13(f) securities
        that is prepared by a third party each quarter and testing the list for
        accuracy and completeness on a sample basis.

        Management Comments. The Chairman’s Office concurred with this
        recommendation. See Appendix V for management’s full comments.

        OIG Analysis. We are pleased the Chairman’s Office concurred with this
        recommendation.

Finding 6: The SEC Has No Contract with the
Third Party that Compiles the Official List of
Section 13(f) Securities
        There is no contract between the third party that prepares
        the official list of Section 13(f) securities and the
        Commission.

During our review, both IM staff and the third party that provides the official list of
Section 13(f) securities informed us that they were not aware of any contract or
agreement between the SEC and the third party regarding the preparation of the
list. The SEC’s Office of Acquisitions within the Office of Administrative Services
confirmed that there was no contract between the SEC and the third party and
Review of the SEC’s Section 13(f) Reporting Requirements                 September 27, 2010
Report No. 480
                                                 17
that none had ever been awarded. The third party did provide an informal
memorandum, dated March 13, 1979, which enclosed the specifications for the
official list of Section13(f) securities. This specifications document discussed the
background and requirements of Section 13(f), the definition of Section 13(f)
securities, what types of securities should be included on the official list and how
the list should be compiled. The document also indicated that a sample layout
for the computer tape containing the official list was included. We also found that
no payments are being made to the third party by the Commission in connection
with the preparation or delivery of the official list of Section 13(f) securities. 51

Because there is no formal contract between the third party and the Commission
regarding the official list of Section 13(f) securities, the third party could stop
preparing the official list and providing it to the SEC at any time and the SEC
would have no recourse.

Moreover, the current arrangement with the third party appears to violate the
voluntary services prohibition of the Antideficiency Act, 13 U.S.C. § 1342, which
provides, in part, that “[a]n officer or employee of the United States Government
or the District of Columbia government may not accept voluntary services for
either government or employ personal services exceeding that authorized by law
except for emergencies involving the safety of human life or the protection of
property.”

Comptroller General opinions have defined a “no-cost contract” as “a formal
arrangement between a government entity and a vendor under which the
government makes no monetary payment for the vendor’s performance.” 52
According to the Comptroller General, “[a]t issue when a federal agency agrees
to a no-cost contract and receives services without having to pay is whether the
agency has violated the Antideficiency Act’s voluntary services prohibition, 13
U.S.C. § 1342.” 53 Specifically, a no-cost contract raises the question of whether
it is void due to a lack of consideration. 54 In addressing this issue, the
Comptroller General has held that an agency may enter into a valid, binding no-
cost contract without violating the Antideficiency Act’s voluntary services
prohibition, because services performed pursuant to a formal contract, in which
the agency has no financial obligation and the contractor has no expectation of
payment from the government, are not “voluntary” within the meaning of the
prohibition. 55

51
   The third party located two purchase orders for 1981 and 1982, which reflected an annual fee of $1,200
for providing a quarterly tape covering Form 13F filings. Nonetheless, the third party confirmed that, to its
knowledge, the third party is not receiving payment from the SEC or any other party for the delivery of the
Section 13(f) securities file to the SEC.
52
   No-Cost Contracts for Event Planning Services, B-308968, 2007 U.S. Comp. Gen. LEXIS 220 (Nov. 27,
2007), at *4.
53
   Id. at *4-*5.
54
   Id. at *5, n.2.
55
   Id. at *14. See also General Services Administration and Real Estate Brokers’ Commission, B-302811,
2004 U.S. Comp. Gen. LEXIS 164 (July 12, 2004)(“The acceptance of services without payment pursuant to
Review of the SEC’s Section 13(f) Reporting Requirements                                  September 27, 2010
Report No. 480
                                                    18
The current arrangement with the third party would appear to violate 13 U.S.C. §
1342 because there is no formal binding contract between the parties. If it
wishes to continue the current arrangement, the SEC should enter into a formal
contract or agreement with the third party that specifies that the SEC has no
financial obligation and the firm has no expectation of payment from the
government.

        Recommendation 6:

        The Division of Investment Management, in consultation with the Office of
        Administrative Services and the Chairman’s Office, should ensure that the
        Securities and Exchange Commission (SEC) enters into a formal contract
        or agreement with the third party that prepares the official list required by
        Section 13(f)(3) of the Securities Exchange Act of 1934. This contract or
        agreement should document the third party’s responsibilities for providing
        the official list on a quarterly basis and explicitly state that the SEC has no
        financial obligation and the firm has no expectation of payment from the
        government.

        Management Comments. IM and OAS concurred with this
        recommendation. See Appendix V for management’s full comments.

        OIG Analysis. We are pleased IM and OAS concurred with this
        recommendation.

Finding 7: A Majority of the Confidential
Treatment Requests that Were Selected for
Testing Lacked Files with Supporting
Documents and Forms
       Of the 25 CTRs selected in our initial sample, IM or the
       SEC’s Records Management Branch (RM) could not provide
       files or any supporting documents for 12 of the sample
       items. When we selected an additional 12 CTRs to replace
       the initial sample items, IM or RM could not locate files for
       eight of the 12 additional sample items.
In order to determine whether IM properly processed CTRs, we selected a
sample of 25 CTRs to perform testing for compliance with the applicable
statutory, regulatory and procedural requirements. For each item selected, we
requested a file from IM, and in some cases RM, containing the CTR letter

a valid, binding no-cost contract does not augment an agency’s appropriation nor does it violate the
voluntary services prohibition.”).
Review of the SEC’s Section 13(f) Reporting Requirements                                September 27, 2010
Report No. 480
                                                   19
submitted by the institutional investment manager, the applicable Form 13F,
supporting documents and, for completed requests, IM’s letter responding to the
CTR.

In response to our request for these 25 files, IM or RM could not locate any files
or provide any supporting documentation for 12 of these sample items (48
percent). For another two sample items (eight percent), no file could be located,
but IM did provide supporting documents.

Because we were unable to perform testing on 12 of the items selected in our
initial sample of 25 CTRs due to the lack of availability of files or any supporting
documentation, we selected an additional 12 CTRs in order to perform
compliance testing.

Of the 12 additional sample items, IM provided files for only four items (33.3
percent), and indicated that the files for the remaining eight items (66.7 percent)
should be under the custody of RM. The confidential treatment process had
been completed with respect to these eight items and IM stated that, consistent
with its existing procedures, it had sent the files to RM at various times. When
contacted, however, RM could not find the files for any of the eight sample items
and indicated that they had no record of ever receiving the files. 56 The large
number of missing files limited the amount of testing we were able to perform.

In addition, the large amount of missing files raises concerns that confidential
information that may exist in a completed Section 13(f) CTR could be misplaced,
lost, or inadvertently disclosed. As institutional investment managers are
required to submit to IM the Form 13F containing their holdings in Section 13(f)
securities at the time they submit their CTRs, safeguarding these materials after
a Section 13(f) CTR is completed is important. As part of our testing, we
reviewed supporting documents, such as IM’s response letter to the CTR (if such
a letter had been issued) or the status of the request according to IM’s database
listing, to determine how many of the CTRs for which the filings were missing
resulted in a grant of confidential treatment. We were able to verify that, as of
June 2010, confidential treatment had been granted for six of the original 14
sample items with missing files (43 percent) and for three of the additional 12
sample items with missing files (25 percent). As a consequence, there was no
control over nine files that should have contained information for which IM
determined confidential treatment was warranted.

Further, based upon the missing files noted during our review, it does not appear
that the SEC is complying with its records retention schedule for confidential
56
    RM officials indicated that, under the Commission’s records retention schedule, the CTR files should have
been in IM’s possession if they were less than two years old. RM officials also acknowledged receipt of a
box from IM, which they claim did not include an index of the materials contained in the box. RM officials
indicated that the box had essentially been untouched since its arrival from IM until the OIG’s request for the
files and, therefore, RM did not believe that IM ever sent the files in question to RM.
Review of the SEC’s Section 13(f) Reporting Requirements                                   September 27, 2010
Report No. 480
                                                     20
treatment materials, as IM has not been retaining CTR files for the appropriate in-
house retention period and RM indicated that it had no record of receiving the
missing files. 57 Our inquiries of IM and RM staff during our review also revealed
that they had been unaware that the existing practices and procedures regarding
the files for Section 13(f) CTRs were not in accordance with the records retention
schedule.

         Recommendation 7:

         The Division of Investment Management and the Records Management
         Branch should modify their respective policies and procedures to ensure
         that files for the processing of confidential treatment requests under
         Section 13(f) of the Securities Exchange Act of 1934 are properly
         maintained and retained in accordance with the applicable record
         retention schedule, and should ensure that the established policies and
         procedures are followed.

         Management Comments. IM and RM have concurred with this
         recommendation. See Appendix V for management’s full comments.

         OIG Analysis. We are pleased IM and RM concurred with this
         recommendation.

Finding 8: Certain Filers Received De Facto
Confidential Treatment Even Though Their
Applications Did Not Meet the Criteria for
Confidential Treatment Under Section 13(f)
         Certain requesters received de facto confidential treatment
         although their requests did not meet the substantive criteria
         for confidential treatment of Section 13(f) information.
Requirements for Obtaining Confidential Treatment Under
Section 13(f)
As discussed above, Section 13(f)(3) provides that the Commission, as it
determines to be necessary or appropriate in the public interest or for the
protection of investors, may delay or prevent the public disclosure of information
filed in Section 13(f) reports in accordance with the FOIA. According to IM, FOIA
57
  See National Archives and Records Administration Standard Form 115, Job Number N1-266-98-1,
Approved by the Archivist of the United States on Feb. 22, 1999 (requiring transfer of confidential treatment
materials to the Federal Records Center after two years and destruction after 20 years.) Based upon the
responses to our draft report, we determined that there is considerable disagreement and confusion
between RM and IM regarding the appropriate retention schedule for CTR files. This confusion must be
remedied in order for appropriate action to be taken consistent with Recommendation 7 of this Report.
Review of the SEC’s Section 13(f) Reporting Requirements                                 September 27, 2010
Report No. 480
                                                    21
Exemption 4 is the FOIA exemption that generally applies to Section 13(f) CTRs.
IM’s FAQs About Form 13F state that “[a]t a minimum, requests for confidential
treatment must satisfy the requirements of FOIA Exemption 4 which protects
‘trade secrets and commercial or financial information obtained from a person
and privileged or confidential.’” 58 The standards for Section 13(f) confidential
treatment are set forth in Rule 24b-2 under the Exchange Act and the
Instructions to Form 13F. Rule 24b-2(c) states that “[p]ending a determination as
to the objection [to public disclosure] filed[,] the material for which confidential
treatment has been applied will not be made available to the public.”

According to IM’s guidance to confidential treatment filers, the legislative history
of Section 13(f) emphasizes the importance of granting confidential treatment to
an ongoing investment strategy of an investment manager because “[d]isclosure
of such strategy would impede competition and could cause increased volatility in
the market place.” 59 IM’s guidance further provides that IM’s position is that
Section 13(f) CTRs “can be granted only under certain limited circumstances.” 60

The Form 13F confidential treatment request instructions state that “a [m]anager
requesting confidential treatment must provide enough factual support for its
request to enable the Commission to make an informed judgment as to the
merits of the request.” 61 The instructions further provide that the request should
address all pertinent factors, including several listed relevant factors. 62 These
factors include, among other things, the investment strategy being followed with
respect to the relevant securities holdings, an explanation of why public
disclosure of the securities would likely reveal the investment strategy, a
demonstration that such revelation of an investment strategy would be
premature, and a demonstration that failure to grant the CTR would likely cause
substantial harm to the manager’s competitive position. 63 IM’s guidance to
confidential treatment filers makes clear that a confidential treatment application
that does not provide enough information to satisfy the required elements will be
denied. 64

Pursuant to Rule 24b-2(b)(2)(ii) under the Exchange Act, the confidential
treatment applicant must justify the time period for which confidential treatment is


58
    Frequently Asked Questions, Question 52 at pp. 14-15 (quoting 5 U.S.C. § 552(b)(4)).
59
   Scheidt Letter at p. 2 (quoting Report of Senate Comm. on Banking, Housing and Urban Affairs, S. Rep.
           th         st
No. 75, 94 Cong., 1 Sess. 87 (1975)).
60
   Scheidt Letter at p.1.
61
   Form 13F, Instructions for Confidential Treatment Requests at p. 2.
62
   Id. See also Scheidt Letter at pp. 3-5.
63
   Form 13F, Instructions for Confidential Treatment Requests, at p. 2, Item 2. The confidential treatment
instructions to Form 13F also provide for confidential treatment for open risk arbitrage positions if certain
good faith representations are made. If the required representations are made in writing at the time the
Form 13F is filed, the Commission will automatically accord the subject securities holdings confidential
treatment for a period of up to one year from the date the institutional investment manager is required to file
the Form 13F with the Commission. Id. at pp. 2-3, Item 2(f).
64
   Scheidt Letter at p. 3.
Review of the SEC’s Section 13(f) Reporting Requirements                                   September 27, 2010
Report No. 480
                                                     22
sought. 65 Confidential treatment based upon a claim that the subject information
is confidential, commercial or financial information may initially be requested for a
period not to exceed one year from the date the manager is required to file the
Form 13F report with the Commission. 66 However, the request “should be
limited to the period of time necessary to effectuate the institutional investment
manager’s investment strategy.” 67 In order to extend the time period for which
confidential treatment has been granted, the institutional investment manager
must file a new request for confidential treatment at least 14 days in advance of
the expiration date. 68 If the Commission denies a CTR, or upon expiration of the
confidential treatment previously granted for a filing, absent a hardship
exemption, the institutional investment manager must submit electronically within
six business days of the expiration or notification of the denial, as applicable, a
Form 13F report, or an amendment to a publicly-filed Form 13F report. 69


Certain Filers Have Been Afforded De Facto Confidential
Treatment
As mentioned above, IM, acting under delegated authority from the Commission,
grants or denies applications for confidential treatment of information filed under
Section 13(f), and can revoke grants of confidential treatment for any such
applications. According to IM, Rule 24b-2(c) under the Exchange Act provides
for confidentiality pending review of a Section 13(f) CTR in order to, among other
things, safeguard the interest of the requester. Thus, any passage of time before
IM issues a written response to a CTR will result in the requester receiving de
facto confidential treatment for some or all of its reportable securities positions.
Our review of records pertaining to approximately 400 Section 13(f) CTRs that
were submitted between January 2008 and December 2009 revealed that this
has, in fact, occurred in certain situations. One of those ongoing situations,
discussed below, resulted in six to 16 managers per quarter receiving
confidential treatment for a single holding over some part of a two-calendar year
period. The other ongoing situation, also discussed below, involves a particular
class of filer.

During our review, we obtained from IM a database listing of CTRs submitted
between January 2008 and December 2009. Our review of this listing revealed
that, for certain filers, there was no information showing whether the request had
been granted or denied. Upon inquiry of the IM staff who maintain the database,
we learned that a majority of the filers with missing status were holding securities
of one particular issuer, and that IM had not officially granted or denied the CTRs

65
   17 C.F.R. § 240.24b-2(b)(2)(ii).
66
   Form 13F, Instructions for Confidential Treatment Requests, at p. 2, Item 2(e).
67
   Frequently Asked Questions, Question 57a at p. 21. See also Scheidt Letter at p. 3.
68
   Form 13F, Instructions for Confidential Treatment Requests at p. 3, Item 2(g).
69
   Id. at p. 3, Item 4.
Review of the SEC’s Section 13(f) Reporting Requirements                               September 27, 2010
Report No. 480
                                                  23
submitted by these filers. We found that some CTRs pertaining to the securities
of the issuer that had neither been granted nor denied dated back to March 2008.
Most of the managers that requested confidential treatment for their position in
the issuer filed de novo requests when the initial one-year period of confidential
treatment requested was due to expire. In the absence of a written response to
their quarterly requests, such managers received de facto confidential treatment.
In some instances, such period of de facto confidential treatment was longer than
one year.

During the review, IM officials provided us with details regarding their
communications with the issuer, as well as IM’s exploration of potential options to
address the situation. Our review determined that these requests for confidential
treatment did not meet the substantive criteria for granting a CTR. Therefore,
based upon the applicable procedures and IM’s own guidance, we believe these
requests should have been denied.

Another instance in which Form 13F filers received de facto confidential
treatment involved a particular class of filer, certain large foreign institutional
investment managers. The portfolios of these foreign managers generally
consist of assets such as stocks, bonds, property or other financial instruments,
and such managers generally invest on a global basis. Our review of IM’s CTR
database listing for the period from March 2008 to December 2009 revealed that
IM had not granted or denied CTRs submitted by a particular large foreign
institutional investment manager for its March, June and December 2009 filings,
thus affording these filings some period of de facto confidential treatment.

IM staff explained to the OIG their work to date in analyzing the large foreign
institutional investment manager’s CTRs. Our review determined that such
requests for confidential treatment under Section 13(f)(3) did not meet the
substantive criteria for the granting of confidential treatment. Rather than
denying the requests, however, IM did not respond to the requests in writing and,
as a result, the foreign manager received de facto confidential treatment.

        Recommendation 8:

        The Division of Investment Management (IM), in consultation with the
        Chairman’s Office, as necessary, should take appropriate steps to
        improve its policies and procedures to ensure that written requests for
        confidential treatment under Section 13(f) of the Securities Exchange Act
        of 1934 (particularly certain novel requests) are granted or denied within
        an appropriate timeframe, so that institutional investment managers are
        not afforded de facto confidential treatment as a result of IM not issuing a
        written response.



Review of the SEC’s Section 13(f) Reporting Requirements             September 27, 2010
Report No. 480
                                                 24
        Management Comments. IM concurred with this recommendation. See
        Appendix V for management’s full comments.

        OIG Analysis. We are pleased that IM concurred with this
        recommendation.

        Recommendation 9:

        The Division of Investment Management, in consultation with the Office of
        the General Counsel, the Office of International Affairs and the Chairman’s
        Office, as necessary, should take appropriate steps to improve its policies
        and procedures to ensure that requests for relief under Section 13(f) of the
        Securities Exchange Act of 1934 made by certain large foreign institutional
        investment managers are addressed in a timely and appropriate manner.

        Management Comments. IM concurred with this recommendation. See
        Appendix V for management’s full comments.

        OIG Analysis. We are pleased that IM concurred with this
        recommendation.

Finding 9: Form 13F Does Not Currently
Require Disclosure of All Significant
Investment Activities of Institutional
Investment Managers and Could Be Improved
        The current Form 13F does not provide for the disclosure of
        all significant investment activities of institutional investment
        managers, and it could be improved to be more useful to the
        public.

Limitation on Securities Currently Required to be Reported
Under Section 13(f)
The types of information and categories of investments required to be reported
under Section 13(f) have not been updated since the enactment of that Section in
1975. The types of securities required to be reported under Section 13(f) include
“exchange-traded (e.g., NYSE, AMEX) or NASDAQ-quoted stocks, equity
options and warrants, shares of closed-end investment companies, and certain
convertible debt securities.” 70 More sophisticated investment vehicles, such as
derivatives or shares of open-end investment companies and mutual funds that

70
  Frequently Asked Questions, Question 7 at p. 3.
Review of the SEC’s Section 13(f) Reporting Requirements               September 27, 2010
Report No. 480
                                                 25
might have been used to hedge equity securities, are not required to be reported
on Form 13F. As a consequence, the public cannot obtain a complete picture of
all significant investment activities of institutional investment managers.

Aggregation of Securities Reported on Form 13F
Section 13(f) allows institutional investment managers to report securities over
which the institutional investment managers have discretion in the aggregate,
making Form 13F filings less helpful for users to analyze institutional investment
managers’ activities. According to IM’s FAQs About Form 13F, an investment
advisory firm that has sole investment discretion may aggregate all of its holdings
in each issuer and report all of its holdings in a security in one entry on Form
13F. 71 An investment advisory firm may also aggregate its holdings on Form
13F if it shares investment discretion with someone that does not have an
independent obligation to file under Section 13(f). 72 According to a Risk Fin staff
member, a requirement that institutional investment managers separately report
holdings in proprietary accounts and holdings in customer accounts would
provide the public with a more meaningful picture of the activities of institutional
investment managers.

Average Positions in Section 13(f) Securities
Institutional investment managers are required to report Section 13(f) securities
held at the end of a quarter. Hence, an institutional investment manager that
purchased a significant amount of Section 13(f) securities after the beginning of a
quarter, but disposed of them before the quarter end, would not be required to
report those holdings. As a consequence, the public does not have complete
information about the activities of the institutional investment managers during a
quarter and the effect of those activities on the market. A Risk Fin staff member
noted that a simple way to fix this problem would be to add a requirement to
Section 13(f) that would require the institutional investment managers to report
average positions held in Section 13(f) securities during a quarter. This
additional information would provide a clearer picture of the institutional
investment managers’ activities.

Increasing the Threshold for Section 13(f) Reporting
According to an IM attorney who reviewed the issue, the current Section 13(f)
reporting threshold of $100 million is outdated as it does not reflect inflation and
appreciation in securities since the inception of Section 13(f) in 1975. In 2006, at
IM’s request, Risk Fin (then the Office of Economic Analysis) performed an
analysis of the impact of increasing the threshold required for Section 13(f)

71
  Id., Question 38 at p. 10.
72
  Id., Question 38 at pp. 10-11.
Review of the SEC’s Section 13(f) Reporting Requirements            September 27, 2010
Report No. 480
                                                 26
reporting from $100 million to an amount reflecting inflation. According to that
analysis, a threshold of $300 million, which reflected inflation using the consumer
price index, would result in a significant decrease in the number of institutional
investment managers that would be required to file Form 13F, but a relatively
modest decrease in the total dollar amount of assets covered. We believe that
this analysis should be updated to determine whether an increase in the
threshold amount should be pursued.

Aggregate Purchases and Sales of Section 13(f) Securities
Section 13(f)(1)(D) gives the Commission the authority to require institutional
investment managers to report the aggregate purchases and aggregate sales of
holdings in Section 13(f) securities during the reporting period. 73 However, the
Commission currently has not adopted a rule to require the disclosure of
aggregate purchases and sales of Section 13(f) securities. This additional
disclosure would assist the public in better understanding the frequency and
volume of trading activities of the institutional investment managers.

        Recommendation 10:

        The Division of Investment Management, in consultation with the Division
        of Risk, Strategy, and Financial Innovation, the Office of the General
        Counsel and the Chairman’s Office, should determine whether legislative
        changes to Section 13(f) of the Securities Exchange Act of 1934 should be
        sought, specifically with respect to expanding the definition of Section
        13(f) securities, requiring separate reporting of securities held in
        proprietary accounts and customer accounts, reporting average positions
        in Section 13(f) securities, and increasing the Section 13(f) reporting
        threshold.

        Management Comments. IM and Risk Fin concurred with this
        recommendation. See Appendix V for management’s full comments.

        OIG Analysis. We are pleased that IM and Risk Fin concurred with this
        recommendation.

        Recommendation 11:

        The Division of Investment Management, in consultation with the
        Chairman’s Office, should request that the Division of Risk, Strategy, and
        Financial Innovation update its analysis of the impact of increasing the
        reporting threshold of $100 million for Section 13(f) of the Securities
        Exchange Act of 1934.

73
  15 U.S.C. § 78m(f)(1)(D).
Review of the SEC’s Section 13(f) Reporting Requirements            September 27, 2010
Report No. 480
                                                 27
        Management Comments. IM and Risk Fin have concurred with this
        recommendation. See Appendix V for management’s full comments.

        OIG Analysis. We are pleased IM and Risk Fin concurred with this
        recommendation.

        Recommendation 12:

        The Division of Investment Management, in consultation with the Division
        of Risk, Strategy, and Financial Innovation and the Chairman’s Office,
        should determine whether to recommend to the Commission that it adopt
        a rule requiring institutional investment managers to report aggregate
        purchases and aggregate sales of securities required to be reported under
        Section 13(f) of the Securities Exchange Act of 1934.

        Management Comments. IM and Risk Fin concurred with this
        recommendation. See Appendix V for management’s full comments.

        OIG Analysis. We are pleased that IM and Risk Fin concurred with this
        recommendation.




Review of the SEC’s Section 13(f) Reporting Requirements          September 27, 2010
Report No. 480
                                                 28
                                                                       Appendix I


                                    Acronyms

AMEX                          American Stock Exchange
CTR                           Confidential Treatment Request
CUSIP                         Committee on Uniform Securities Identification
                              Procedures
EDGAR                         Electronic Database Gathering and Retrieval
Exchange Act                  Securities Exchange Act of 1934
FAQs                          Frequently Asked Questions
FOIA                          Freedome of Information Act
FTP                           File Transfer Protocol
IM                            Division of Investment Management
NASDAQ                        National Association of Securities Dealers Automated
                              Quotations
NYSE                          New York Stock Exchange
OCIE                          Office of Compliance Inspections and Examinations
OGC                           Office of the General Counsel
OIG                           Office of Inspector General
OIT                           Office of Information Technology
Risk Fin                      Division of Risk, Strategy, and Financial Innovation
RM                            Records Management Branch
SAS                           Statement of Auditing Standards
SEC or Commission             U.S. Securities and Exchange Commission
XBRL                          Extensible Business Reporting Language
XML                           Extensible Markup Language




Review of the SEC’s Section 13(f) Reporting Requirements          September 27, 2010
Report No. 480
                                             29
                                                                       Appendix II


                       Scope and Methodology
This review was not conducted in accordance with the government auditing
standards.

Scope. The scope of this review covered the period from January 2008 to
December 2009, and included a review of Congress’s intent in enacting Section
13(f) of the Exchange Act, the reporting process for Section 13(f), the Form 13F
filings and requests for confidential treatment of information reported on Form
13F. We obtained from IM a listing of CTRs from January 2008 to December
2009, information concerning IM’s internal procedures for processing CTRs, and
other information necessary to determine whether the CTRs were being properly
processed. We conducted our fieldwork from May 2010 to June 2010.

Methodology. To meet the objectives to examine whether the Commission’s
implementation of and current practices under Section 13(f) meet Congress’s
intent in establishing Section 13(f); determine whether the reporting of entities
covered under Section 13(f) is appropriately designed to comply with the
statutory requirements; and determine whether the Commission’s policies and
procedures for reviewing and processing requests for confidential treatment of
information required to be reported under Section 13(f) are adequate and
appropriate, the OIG conducted a survey of IM staff members who have duties or
responsibilities pertaining to Section 13(f). We then interviewed the IM staff
responsible for executing policies and procedures with respect to Section 13(f),
primarily including the processing of CTRs. We also interviewed staff in Risk Fin
and OCIE regarding the Section 13(f) reporting process, and RM staff regarding
the procedures pertaining to CTR files. Additionally, we reviewed IM’s
procedures for processing CTRs. We selected and tested a sample of CTRs that
were processed by IM to determine if IM adhered to the applicable rules and
regulations in affording confidential treatment to the Section 13(f) filings of
institutional investment managers.

Internal or Management Controls. We reviewed internal and management
controls as they pertained to the objectives of our review.

Use of Computer-Processed Data. We relied on data from the SEC’s EDGAR
system, which included the name of the filer and Form 13F data for a selected
sample of CTRs. The EDGAR system does not process any of the data
contained in the Form 13F filings, but rather only stores the filings in electronic
format. As a result, we considered the relevant risks to be:

       •   An EDGAR system failure to receive or retain a Form 13F filing from
           an issuer; and

Review of the SEC’s Section 13(f) Reporting Requirements          September 27, 2010
Report No. 480
                                             30
                                                                      Appendix II


       •   Information security risks related to whether Form 13F information in
           the EDGAR system could be compromised.

We considered the risk surrounding information security and noted that, in
November 2007, OIT certified and accredited the EDGAR system, as required by
the Federal Information Security Management Act of 2002. Therefore, we
concluded that we could rely upon the information in the EDGAR system as it
pertains to information security.

We also relied on IM’s internal database listing for CTRs. We performed testing
of the database listing for accuracy and completeness by comparing information
in the database listing to information contained in source documents, such as
Forms 13F and CTR letters.

Judgmental Sampling. IM provided us with a list of CTRs submitted under
Section 13(f) for the period from January 2008 to December 2009, which
included approximately 446 CTRs. We determined that a sample size of 25 (5.6
percent) was reasonable for the purposes of our testing.




Review of the SEC’s Section 13(f) Reporting Requirements         September 27, 2010
Report No. 480
                                             31
                                                                      Appendix III


                                       Criteria
Section 13(f) of the Securities Exchange Act of 1934, 15 U.S.C. § 78m(f).
Established a reporting requirement for securities holdings of institutional
investment managers in order to increase the public availability of information
regarding the securities holdings of institutional investors. Requires this data to
be made publicly available unless the Commission prevents or delays disclosure
as necessary or appropriate in the public interest to protect investors. Enacted
by Public Law 94-29, the Securities Acts Amendments of 1975, on June 4, 1975.

Voluntary Services Prohibition of the Antideficiency Act, 31 U.S.C. § 1342.
Prohibits a U.S. Government officer or employee from accepting voluntary
services except for emergencies involving the safety of human life or the
protection of property.

Report of the Senate Committee on Banking, Housing and Urban Affairs,
Senate Report No. 94-75, 94th Cong., 1st Sess. (Apr. 14, 1975), reprinted in
1975 U.S.C.C.A.N. 179. Contains the legislative history for Section 13(f) of the
Exchange Act.

Commission Rule13f-1, 17 C.F.R. § 240.13f-1, Reporting by Institutional
Investment Managers of Information with Respect to Accounts Over Which
They Exercise Investment Discretion. Requires quarterly reporting of
institutional investment managers that exercise investment discretion of
securities holdings of $100 million or more on Form 13F. Initially adopted on
June 15, 1978, and revised on January 5, 1979, and January 12, 1999.

Commission Rule 24b-2, 17 C.F.R. § 240.24b-2, Nondisclosure of
Information Filed with the Commission and with Any Exchange. Specifies
the procedure for requesting confidential treatment of information required to be
filed with the Commission under the Exchange Act. Provides that the procedure
set forth in the rule is the exclusive procedure for requesting confidential
treatment of information required to be filed under the Exchange Act. Initially
adopted on April 28, 1976, and revised on February 23, 1993, June 9, 1995,
September 7, 1995, and May 31, 1996.

Commission Rule of Organization 30-5(c)(1) and (2), 17 C.F.R. § 200.30-
5(c)(1) and (2), Delegation of Authority to Director of Division of Investment
Management. Delegates authority to the Director of IM to grant and deny
applications for confidential treatment of information filed pursuant to Section
13(f) and Rule 13f-1 thereunder, and to revoke a grant of confidential treatment
for any such application. Added on February 5, 1981.


Review of the SEC’s Section 13(f) Reporting Requirements          September 27, 2010
Report No. 480
                                             32
                                                                    Appendix III


Instructions for Form 13F, Information Required of Institutional Investment
Managers Pursuant to Section 13(f) of the Securities Exchange Act of 1934
and Rules Thereunder. Contains both general instructions for filing Form 13F
and instructions for CTRs submitted under Form 13F. Initially adopted on June
15, 1978, and revised on January 5, 1979, June 28, 1979, and May 14, 1985,
and January 12, 1999.

Division of Investment Management Frequently Asked Questions About
Form 13F, May 2005. Contains the staff’s views on frequently asked questions
to assist institutional investment managers that are required to file Form 13F.

Letter from Douglas Scheidt, Associate Director and Chief Counsel,
Division of Investment Manager to Section 13(f) Confidential Treatment
Filers. Discusses IM’s position regarding Form 13F confidential treatment
requests. Issued on June 17, 1998.




Review of the SEC’s Section 13(f) Reporting Requirements       September 27, 2010
Report No. 480
                                             33
                                                                         Appendix IV


                      List of Recommendations

Recommendation 1:

The Chairman’s Office should delegate primary responsibility for reviewing and
analyzing Form 13F information to the appropriate division or office.

Recommendation 2:

The Chairman’s Office should assign to the appropriate divisions or offices
responsibility for monitoring Section 13(f) filings for accuracy and completeness
in order to limit the errors in or problems with the filings and thereby enhance the
usefulness and reliability of the data.

Recommendation 3:

The Division of Investment Management and the Office of Information
Technology should renew the efforts that were begun in 2005 and implement
checks in the Electronic Data Gathering and Retrieval (EDGAR) system that will
detect and/or correct obvious errors contained in the Forms 13F that are
uploaded in EDGAR.

Recommendation 4:

The Division of Investment Management, in consultation with the Chairman’s
Office, should work with the Office of Information Technology and update Form
13F to a more structured format, such as Extensible Markup Language (XML), to
make it easier for users and researchers to extract and analyze Section 13(f)
data.

Recommendation 5:

The Chairman’s Office should assign to an appropriate division and/or office
responsibility for reviewing the official list of Section 13(f) securities that is
prepared by a third party each quarter and testing the list for accuracy and
completeness on a sample basis.




Review of the SEC’s Section 13(f) Reporting Requirements             September 27, 2010
Report No. 480
                                             34
                                                                         Appendix IV


Recommendation 6:

The Division of Investment Management, in consultation with the Office of
Administrative Services and the Chairman’s Office, should ensure that the
Securities and Exchange Commission (SEC) enters into a formal contract or
agreement with the third party that prepares the official list required by Section
13(f)(3) of the Securities Exchange Act of 1934. This contract or agreement
should document the third party’s responsibilities for providing the official list on a
quarterly basis and explicitly state that the SEC has no financial obligation and
the firm has no expectation of payment from the government.

Recommendation 7:

The Division of Investment Management and the Records Management Branch
should modify their respective policies and procedures to ensure that files for the
processing of confidential treatment requests under Section 13(f) of the
Securities Exchange Act of 1934 are properly maintained and retained in
accordance with the applicable record retention schedule, and should ensure that
the established policies and procedures are followed.

Recommendation 8:

The Division of Investment Management (IM), in consultation with the Chairman’s
Office, as necessary, should take appropriate steps to improve its policies and
procedures to ensure that written requests for confidential treatment under
Section 13(f) of the Securities Exchange Act of 1934 (particularly certain novel
requests) are granted or denied within an appropriate timeframe, so that
institutional investment managers are not afforded de facto confidential treatment
as a result of IM not issuing a written response.

Recommendation 9:

The Division of Investment Management, in consultation with the Office of the
General Counsel, the Office of International Affairs and the Chairman’s Office, as
necessary, should take appropriate steps to improve its policies and procedures
to ensure that requests for relief under Section 13(f) of the Securities Exchange
Act of 1934 made by certain large foreign institutional investment managers are
addressed in a timely and appropriate manner.




Review of the SEC’s Section 13(f) Reporting Requirements             September 27, 2010
Report No. 480
                                             35
                                                                      Appendix IV


Recommendation 10:

The Division of Investment Management, in consultation with the Division of Risk,
Strategy, and Financial Innovation, the Office of the General Counsel and the
Chairman’s Office, should determine whether legislative changes to Section 13(f)
of the Securities Exchange Act of 1934 should be sought, specifically with
respect to expanding the definition of Section 13(f) securities, requiring separate
reporting of securities held in proprietary accounts and customer accounts,
reporting average positions in Section 13(f) securities, and increasing the Section
13(f) reporting threshold.

Recommendation 11:

The Division of Investment Management, in consultation with the Chairman’s
Office, should request that the Division of Risk, Strategy, and Financial
Innovation update its analysis of the impact of increasing the reporting threshold
of $100 million for Section 13(f) of the Securities Exchange Act of 1934.

Recommendation 12:

The Division of Investment Management, in consultation with the Division of Risk,
Strategy, and Financial Innovation and the Chairman’s Office, should determine
whether to recommend to the Commission that it adopt a rule requiring
institutional investment managers to report aggregate purchases and aggregate
sales of securities required to be reported under Section 13(f) of the Securities
Exchange Act of 1934.




Review of the SEC’s Section 13(f) Reporting Requirements         September 27, 2010
Report No. 480
                                             36
                                                                                                              Appendix V


                           Management Comments




                                                   MEMORANDUM


              TO:            H. David Kotz
                             Inspector General             ~

              FROM:          Kayla J. Gillanv1) J. bI
                                                 I' .

                             Deputy Chief of   ~ of the Chairman
              DATE:          September 24, 2010

              SUBJECT:       Response to Report No. 480, Review ofthe SEC's Section 13(j) Reporting
                             Requirements


              This memorandum is in response to the Office of Inspector General's Draft Report No.
              480, entitled Review ofthe SEC's Section 13(j) Reporting Requirements. We appreciate the
              work of the Office ofInspector General (OIG) in reviewing the Commission's program and
              processes with regard to Section B(f) of the Securities Exchange Act of 1934.

              Section B(f), which provides for the public availability of infonnation regarding the
              securities holdings of certain institutional investors, is a vital part of the SEC's full
              disclosure program. The data that is provided by institutional investors on Fonn BF is
              extraordinari1y valuable to investors and other financial market participants. We welcome
              the OIG's focus on this important topic, and appreciate the Report's recommendations for
              ensuring the effectiveness of the agency's program to implement Section 13(f).

              The purpose of this memorandum is to comment on the three recommendations that the
              Report directs to the Office of the Chainnan.

              Recommendlltion 1: The Chairman 's Office should delegate primary responsibility for
              reviewing and analyzing Form 13F information to the appropriate division or office.

              We concur with this recommendation. While the Report acknowledges the variety of
              important ways in which SEC staff make use ofFonn BF data, including to support the
              agency's enforcement and rulemaking activities, we agree that it would be beneficial to
              clarify the appropriate roles and responsibilities with regard to data provided under Section
              B(f), including identification of a primary office responsible for reviewing and analyzing
              Fonn 13F infonnation.

              To implement therecommendation, we will work with the relevant SEC offices, including
              the Division of Investment Management, Division of Corporation Finance, Division of




Review of the SEC’s Section 13(f) Reporting Requirements                                           September 27, 2010
Report No. 480
                                                          37
                                                                                                               Appendix V




                                                            Response to Report No. 480September 24, 2010
                                                                                                  Page 2

              Risk, Strategy, and Financial Innovation, and Office ofCompliance Inspections and
              Examinations, to assist in identifying and delineating the appropriate scope of
              responsibilities with respect to Section B(f), and will consult with the Office of General
              Counsel as to whether formal Commission action would be required to execute any new or
              amended responsibilities.

              Recommendlltion 2: The Chairman's Office should assign to the appropriate divisions or
              offices responsibilityfor monitoring Section 13(f) filings for accuracy and completeness in
              order to limit the errors in or problems with the filings, thereby enhancing the usefulness
              and reliability ofthe data.

              We concur with this recommendation. In taking the actions described in the response to
              Recommendation I, we will include a specific focus on the responsibility for monitoring of
              Section 13(f) filings. Since there are approximately 3,000 to 4,000 Form 13Fs filed each
              quarter, we appreciate the OIG's acknowledgement that any actions that might be
              considered in connection with enhanced monitoring of Form 13F filings need not entail
              "cumbersome and time-consuming" reviews of each filing. We will also give particular
              attention to the specific suggestions made by the OIG to provide for more systematic
              monitoring of Form 13F,such as consideration of a pilot program or other initiative on a
              test basis.

              Recommendation 5: The Chairman's Office should assign to an appropriate division
              and/or office responsibilityfor revieWing the official list ofSection 13(f) securities that is
              prepared quarterly by a third party and test it on a sample basis.

              We concur with this recommendation. In taking the actions described in the response to
              Recommendation 1, we will include a specific focus on office responsibilities with respect
              to the "Official List of Section 13(f) Securities" that is posted on the SEC's website. We
              agree that it is important that the official list be up-to-date and accurate, since institutional
              investment managers rely on it in preparing their BF reports. In addition, as the SEC
              moves forward to implement Recommendation 6, which recommends that the SEC enter
              into a formal contract or agreement with the third party that prepares the list, it will provide
              an appropriate opportunity for the SEC, acting through our Office of Acquisitions, to obtain
              assurances with respect to the quality and reliability of the data provided.

              Thank you, again, for your focus on these important topics, and for the OIG's work on this
              audit. Please don't hesitate to contact me if you have any questions.




                                                                                                               2




Review of the SEC’s Section 13(f) Reporting Requirements                                              September 27, 2010
Report No. 480
                                                            38
                                                                                                           Appendix V




          To: H. David Kotz
          From: Andrew Donohue; Douglas Scheidt; David Grim; Stephan Packs
          Dale: Septeni)er24,2010
          Re: Divirion ofInvc:stment Management Response to the Office of Inspector Gc:nc:ral's Report
          No. 480 - Review ofSEC's section 13(f) Reportq Requir'emcnts

          This memorandum is in response to the Office ofInspector Gc:nc:ra1's Report No. 480. 11IanIc you
          ilr the oppo~ to respond to the report. We concur with the reconwnendations of the report
          inlIofar as they pertain 10 the Division ofInvestmo1I Management ('1Mj, and add the ilIJowVlg
          cormnmts.                                                       .

          We are p1eased that the OIG ilund that., '1M has put in place weD construcled revll:w proc;:edures
          ilr processing erRs...

          In addition, we concur with the Risk Fin conwnenls on the report. In particular, we agree tbat
          coDSidc:ralion ofsignificanl changes to Fonn 13F sroukl be part ofl ooordirwed revll:w of tile
          overaII SEC ~cm ilr disdomg ownenbip and trInSIClions in the sccwitjes of public
          companies, ralhcr than in isolation, and tbat it mly not be possible 10 undc:nlke I revll:w of the
          DCCCSW)' scope immcdi.al:e!y. 1M will play an important role in this ooordirwed revll:w.
          Ahbough as the OIG report recognize$IM's delegatedlUlhorily with respccI to section 13(f) is
          limited to coDSidc:ralion ofconfidential. trt:atme:nI. requests under the section, 1M has experience
          tbat is rdevanllo each of tile reconnneodations in the report. We look furwllrd to col1aborating
          with our colleagues on the staffwho possess relev11l1 expertise in implementing the
          recommendations.

          Our comments on the specific recorrmendations are desaibod beklw.

          Recommendldon 1: The Chainnan's Office should deleglte primary responsibility fur reviewing
          and analyzing Fonn 13F inbrmation 10 the IIppropriate division or office.

          1M Comments: Becluse lhis is a recommendation br the Chairman's Office, we defer to its
          judgment. We concur with the Risk Fin connnents IS they relate to this recommendation,
          particularly the discussion ofhow Ihe Commission staffCUITer1tly does use Section 13(f)
          information in a number of important ways.

          Recommend.don 2: The Chairman's Office should assign to the appropriate divisions or offices
          responsibility for monitoring Section l3(f) filings for lecuracy and coropleteness in order to limit
          the errors in or problems with the filings and thereby enhance lhe usefulness and reliability ofthe
          d~L


          1M Comments: Because Ihis is II recommendation for Ihe Chairman's Office, we defer to ils
          judgment.




Review of the SEC’s Section 13(f) Reporting Requirements                                            September 27, 2010
Report No. 480
                                                            39
                                                                                                               Appendix V




                                                            -2-


          Recommcnd.tioa 3: The DIvision of Investment Management and the Office of InfOrmation
          T cchnology should renew the efbrts thai were begun in 2005 and imp\ement chec:b in the
          Electronic Data Gathc:riog aDd Retrieval (EOOAR) S)'Stem that will detect and/or conttt obvious
          emu'S contained in the Forms 13F that are uploaded in EDGAR.

          1M CoIrurfeIllS: We concur with this recommendation.

          RKOmJIIU<btiOD 4: The Division ofInvestment Management, in consulWion with the
          Chairman's Office, should work with the Office aflniurn.lion TecMology and update Form 13F
          to. IMre stIUC:tUred imnal, such as E.nc:nsilk Martup Language (XML), to make il: easier br
          usen and resean:bers to extract and analyze Section 13{f) data.

          1M Com~lIl$: We concur with this rcc:ommcndation. 1M will share its rclc:vanI experic:nce in
          collaborating with the Chairman's Office and the Office oflnfOmwion Tcchnology to implement
          this rcoonwnmdation. Per Risk Fin'S oonmx:nlS, we also will benefit from their expertise on these
          """'-
          Recommendation 5: The Chairman's Office should assign to an appropriate division and/or
          office responsibility fOr reviewing the official list of Section 13(f) securities that is prepared by a
          third pany each quarter and testing the list for aocuracy and completeness on a sample basis.

          1M ComIMI'IU;    Because this is a reoommcndatxm lOr the OJairman's Office, we defo- to its
          judgmcnl.

          Recommendation 6: The Division oflnvestrnent Management, in consultation with the Office of
          Administrative Services and the Chaimwl.'s Office, should ensure that the Securities and
          Exchange Commission (SEC) enters into a furmal contract or agreement with the third party thai
          prepares the official list required by Section 13(f)(3) ofthe Securities Exchange Act of 1934. This
          oontract or agrecmc:nt should document the third party's responsibilities for providing the official
          list on a quarterly basis and explicitly state that the SEC has no financial obligation and the finn
          has no expectation ofpayment from the government.

          1M Q}mments: We ooncur with this recommendation. 1M will share its relevant experience in
          collaborating with the Office ofAdministrative Services and the Chairman's Office to implement
          this recommendation.

          Recommendation 7: The Division ofInvestment Management and the Records Management
          Branch should modify their respe<:tive policies and procedures to ensure that files for the
          processing ofconfidential treatment requests wxier Section 13(1) ofthe Securities Exchange Act
          of 1934 are properly maintained and retained in acoordance with the applieable record retention
          schedu1e, and should ensure that the established policies and procedures are followed.




Review of the SEC’s Section 13(f) Reporting Requirements                                               September 27, 2010
Report No. 480
                                                             40
                                                                                                        Appendix V




                                                         -3-


          1M Comments: We concur with this recommendation. 1M has already begun coordinating with
          Records Management on modifYing the relevant policies and procedures.

          Recommendation 8: The Division ofInvestment Management (1M), in consultation with the
          Chairman's Office, as necessary, should take appropriate steps to improve its policies and
          procedures to ensure that written requests for confidential treatment under Section 13(f) of the
          Securities Exchange Act of 1934 (particularly certain novel requests) are granted or denied within
          an appropriate timeframe, so that institutional investment managers are not afforded de facto
          confidential treatment as a result ofIM not issuing a written response.

          1M Comments: We concur with this recommendation. As the OIG recognizes, 1M has well
          constructed review procedures for processing CTRs. In the cases at issue in recommendation 8,
          1M has expended substantial resources in analyzing nove~ complicated issues that go beyond the
          issues that typically are the subject of a Form 13F CTR. 1M has and will continue to act
          prudently and appropriately in attempting to resolve these matters, focusing on ensuring that no
          filer is afforded unwarranted de facto confidential treatment.

          Recommendation 9: The Division ofInvestment Management, in consultation with the Office of
          the General Counse~ the Office ofIntemational Affairs and the Chairman's Office, as necessary,
          should take appropriate steps to improve its policies and procedures to ensure that requests for
          relief under Section 13(f) ofthe Securities Exchange Act ofl934 made by certain large foreign
          institutional investment managers are addressed in a timely and appropriate manner.

          1M Comments: We concur with this recommendation. As the OIG recognizes, 1M has well
          constructed review procedures for processing CTRs. In the cases at issue in recommendation 9,
          1M has expended substantial resources in analyzing novel, complicated issues that go beyond the
          issues that typically are the subject of a Form 13F CTR. 1M has and will continue to act
          prudently and appropriately in attempting to resolve these matters, focusing on ensuring that no
          filer is afforded unwarranted de facto confidential treatment.

          Recommendation 10: The Division ofInvestment Management, in consultation with the Division
          of Risk, Strategy, and Financial Innovation, the Office ofthe General Counsel and the Chairman's
          Office, should determine whether legislative changes to Section 13(f) ofthe Securities Exchange
          Act ofl934 should be sought, specifically with respect to expanding the definition of Section
          13(f) securities, requiring separate reporting ofsecurities held in proprietary accounts and
          customer accounts, reporting average positions in Section 13(f) securities, and increasing the
          Section 13(f) reporting threshold.

          1M Comments: We concur with this recommendation. 1M will share its relevant experience in
          collaborating with Risk Fin, OGC, and the Chairman's Office to implement this recommendation.
          We also concur with the Risk Fin comments as they relate to this recommendation. In particular,
          we emphasize that consideration of significant changes to Form 13F should be part ofa




Review of the SEC’s Section 13(f) Reporting Requirements                                        September 27, 2010
Report No. 480
                                                          41
                                                                                                        Appendix V




                                                         -4-


         coordinated review of the overall SEC system for disclosing ownership and transactions in the
         securities of public companies, rather than in isolation, and that it may not be possible to
         undertake a review ofthe necessary scope immediately.

         Recommendation 11: The Division ofInvestment Management, in consultation with the
         Chairman's Office, should request that the Division of Risk, Strategy, and Financial Innovation
         update its analysis of the impact ofincreasing the reporting threshold of$IOO million for Section
         13(f) ofthe Securities Exchange Act of 1934.

          1M Comments: We concur with this recommendation. 1M will share its relevant experience in
          collaborating with the Chairman's Office and Risk Fin to implement this recommendation. We
          also concur with the Risk Fin comments as they relate to this recommendation. In particular, we
        . emphasize that consideration of significant changes to Form 13F should be part of a coordinated
          review ofthe overall SEC system for disclosing ownership and transactions in the securities of
          public companies, rather than in isolation, and that it may not be possible to undertake a review of
          the necessary scope immediately.

         Recommendation 12: The Division ofInvestment Management, in consultation with the Division
         of Risk, Strategy, and Financial Innovation and the Chairman's Office, should determine whether
         to recommend to the Commission that it adopt a rule requiring institutional investment managers
         to report aggregate purchases and aggregate sales of securities required to be reported under
         Section 13(f) ofthe Securities Exchange Act of 1934.

         1M Comments: We concur with this recommendation. 1M will share its relevant experience in
         collaborating with Risk Fin and the Chairman's Office to implement this recommendation. We
         also co~cur with the. Risk .Fin comments as they relate to this recommendation. In particular, we
         em~has1Ze that consIderation of significant changes to Form 13F should be part of a coordinated
         reVI~w of the ~verall SEC system for disclosing ownership and transactions in the securities of
         public comparues, rather than in isolation, and that it may not be possible to undertake a review of
         the necessary scope immediately.




Review of the SEC’s Section 13(f) Reporting Requirements                                         September 27, 2010
Report No. 480
                                                          42
                                                                                                                              Appendix V




                                                       MEMORANDUM


           TO:               H. David Kotz, Inspector General

           FROM:             Henry Hu, Director, Division of Risk, Strategy, and Financial Innovation
                                 ~.~.
           DATE:             September 17,2010

           RE:               Draft Review ofthe SEC's Section 13 (j) Reporting Requirements (Report No 480)

                  Thank you for the opportunity to review the September 2 "formal draft" of the Review of
           the SEC's Section 13(j) Reporting Requirements. We appreciate, in particular, your taking into
           account many of the comments we provided previously to your staff. We concur in the
           recommendations of the report insofar as they pertain to the Division of Risk, Strategy, and
           Financial Innovation (Risk Fin), and add the following comments.

                   Risk Fin has assumed the structured data responsibilities of the former Office of
           Interactive Data arid so will assist the Division of Investment Management (1M) in working with
           the Office ofInformation Technology as contemplated by Recommendation 4. 1

                   Staff of our Division, notably our economists, make extensive use of Section 13(f) data.
           The examples you have included in the Report reflect that these data are used extensively in our
           support of both the SEC's enforcement and rulemaking activities. As to Recommendations 10,
           11, and 12, we believe that consideration of significant changes to Form 13F should be part of a
           coordinated review of the overall SEC system for disclosing ownership and transactions in the
           securities of public companies, rather than in isolation. You will understand that it may not be
           possible to undertake a review of the necessary scope immediately.

                  Once again, I want to thank you and your staff for your careful work on this report.
           Please don't hesitate to contact me ifI can provide further clarification.




           I In this regard, we point out 1hat the last paragraph on page 14 could be misread to imply that the XBRL initiative
           somehow conflicted with the goal of SlnIcturing 13F data. In fact, the XBRL work already completed in connection
           with mutual fund holdings reporting substantially overlaps with the 13F stroctured data initiative contemplated by
           Recommendation 4, and means that most of this work is actually already done.




Review of the SEC’s Section 13(f) Reporting Requirements                                                             September 27, 2010
Report No. 480
                                                                    43
                                                                                                     Appendix V




                                                MEMORANDUM

                                                September 16, 2010


              TO:           H. David Kotz
                            Inspector General

              FROM:         Sharon Sheehan       _h--- - ;11..,..,1..
                            Associate Executiv~~
                            Office ofAdministrative Services

              SUBJECT:      OAS Management Response to Draft Report No. 480, Review ofthe
                            SEC's Section 13(f) Reporting Requirements

              This memorandum is in response to the Office of Inspector General's Draft Report No.
              480, Review ofthe SEC's Section 13(f) Reporting Requirements. Thank you fur the
              opportunity to review and respond to this report. We concur with the recommendation
              addressed to OAS.

              Reeommendation 6:

              OAS concurs. We view our role in implementing the recommendation as support to 1M.
              Once a requirements document and proper RQ are submitted to OAS Office of
              Acquisitions, we will work with 1M to execute a formal contract or agreement fur the
              required services.




Review of the SEC’s Section 13(f) Reporting Requirements                                      September 27, 2010
Report No. 480
                                                       44
                                                                      Appendix VI


      OIG Response to Management’s Comments

The Office of Inspector General is pleased that the Chairman’s Office, the
Division of Investment Management, the Division of Risk, Strategy, and Financial
Innovation, the Office of Administrative Services, the Office of Information
Technology, the Office of FOIA and Records Management Services, and the
Office of International Affairs concurred with all of the report’s 12
recommendations. We believe that the implementation of these
recommendations will result in significant improvements to the Section 13(f)
reporting program and will ensure that, consistent with the intent of Congress in
enacting Section 13(f), the investing public is provided with reliable and accurate
information regarding the investment activities of institutional investment
managers and the Form 13F data is fully utilized for a variety of regulatory
purposes. We are pleased that the relevant SEC Offices and Divisions have
agreed to work together to implement our recommendations and to ensure the
effectiveness of the Section 13(f) program.




Review of the SEC’s Section 13(f) Reporting Requirements          September 27, 2010
Report No. 480
                                             45
                     Audit Requests and Ideas

The Office of Inspector General welcomes your input. If you would like to
request an audit in the future or have an audit idea, please contact us at:

U.S. Securities and Exchange Commission
Office of Inspector General
Attn: Assistant Inspector General, Audits (Audit Requests/Ideas)
100 F Street, N.E.
Washington D.C. 20549

Tel. #: 202-551-6061
Fax #: 202-772-9265
Email: oig@sec.gov




      Hotline
      To report fraud, waste, abuse, and mismanagement at SEC,
      contact the Office of Inspector General at:

      Phone: 877.442.0854

      Web-Based Hotline Complaint Form:
      www.reportlineweb.com/sec_oig
